<html>
<title> - FEDERAL, STATE, AND LOCAL COORDINATION: HOW PREPARED IS PENNSYLVANIA TO RESPOND TO A TERRORIST ATTACK OR NATURAL DISASTER?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                FEDERAL, STATE, AND LOCAL COORDINATION: 
   HOW PREPARED IS PENNSYLVANIA TO RESPOND TO A TERRORIST ATTACK OR  
                           NATURAL DISASTER? 

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                     COMMUNICATIONS, PREPAREDNESS,
                              AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2007

                               __________

                           Serial No. 110-69

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
          [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

48-964 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


































                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

        Jessica Herra-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

LORETTA SANCHEZ, California          CHARLES W. DENT, Pennsylvania
NORMAN D. DICKS, Washington          MARK E. SOUDER, Indiana
NITA M. LOWEY, New York              MIKE ROGERS, Alabama
ELEANOR HOLMES NORTON, District of   BOBBY JINDAL, Louisiana
Columbia                             DAVID DAVIS, Tennessee
DONNA M. CHRISTENSEN, U.S. Virgin    PETER T. KING, New York (Ex 
Islands                              Officio)
BOB ETHERIDGE, North Carolina
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                        Craig Sharman, Director

                        Nichole Francis, Counsel

                         Brian Turbyfill, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                  (II)
























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     3

                               Witnesses

Mr. Robert French, Director, Pennsylvania Emergency Management 
  Agency:
  Oral Statement.................................................    14
  Prepared Statement.............................................    17
Ms. MaryAnn Marrocolo, Deputy Managing Director, Managing 
  Director's Office, Philadelphia Office of Emergency Management:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29
Mr. R. Chadwick Paul, Jr., Chief Executive Office, Ben Franklin 
  technology Partners of Northeast Pennsylvania on behalf of Wall 
  Street West:
  Oral Statement.................................................    31
  Prepared Statement.............................................    33
Mr Jonathan Sarubbi, Regional Administrator, FEMA Region III, 
  Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     8
Mr. Robert G. Werts, Program Manager, Northeast Pennsylvania 
  Regional Counter Terrorism Task Force:
  Oral Statement.................................................    20
  Prepared Statement.............................................    23


FEDERAL, STATE, AND LOCAL COORDINATION: HOW PREPARED IS PENNSYLVANIA TO 
           RESPOND TO A TERRORIST ATTACK OR NATURAL DISASTER?

                              ----------                              


                       Monday, September 10, 2007

             U.S. House of Representatives,
                     Committee on Homeland Security
Subcommittee on Emergency Communications, Preparedness, and 
                                                   Response
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., at 
the Fowler Family Southside Center, Northampton Community 
College, 511 East Third Street, Bethlehem, Pennsylvania, 18015, 
Hon. Henry Cuellar [Chairman of the Subcommittee] presiding.
    Member present: Representative Dent.
    Mr. Cuellar. Subcommittee on Emergency Communications, 
Preparedness, and Response will come to order now. Good morning 
and I want to welcome everybody to our panel, of course our 
members of the panel, to the audience. I understand, Charlie, 
we got some students also will be coming in and I am so happy 
that we got students coming in. And, also, as a graduate of a 
community college I am going to thank you very much for holding 
this. And I have always said that I do know community colleges 
educate over half of our students and they play a very 
important role and especially in this new changing technology. 
I mean the world that we have, economy and the needs to make 
sure that we are able to address our technology needs that we 
have community colleges, they used to be junior colleges, now 
community colleges are doing a great job. So it is always a 
pleasure being here.
    First I would like welcome all of you here as this 
subcommittee examines how the Federal, State, and regional, and 
local officials, first responders and the private sector are 
working together to prepare the Commonwealth of Pennsylvania, 
its communities and its residents to respond to a natural 
disaster or a terrorist attack. I would like to first of all 
thank my good friend Charlie for being such a good host. 
Charlie and I have done some work together. We were in Iraq 
last year. It was hot, came down to Laredo, my home town, it 
was hotter. In Laredo down there in the border and, of course, 
Charlie and I served together on the committee, a Ranking 
Member and let me tell you, Congressman Dent, your Congressman, 
Charlie has been a good member. He works very hard. He is very 
diligent. He does his homework. And right after this, as you 
know, we have to rush back to Washington to hear the status 
report on Iraq, as you know, so we got to go back up there. But 
Charlie has been doing a great job in making sure that we 
discuss the critical security challenges that the northeastern 
Pennsylvania faces and I am glad to be here with him on this 
important issue. Charlie has been a good partner. We have 
worked very well together in a bipartisan, who is the Democrat, 
who is the Republic here. He is the Republican. I am the 
Democrat. Okay. All right. We have worked in a very bipartisan 
to address some of the important issues and I think that is the 
way things should be done especially when we talk about 
Homeland Security. Partisan issues should be set aside and we 
should focus on what is good for the nation, what is good for 
the State or the Commonwealth or for our local community and 
Charlie has done that. So I really look forward to working with 
him and doing other field hearings to other parts of the 
country, also.
    You know, too often people who spend too much time in 
Washington lose touch what is going on in the real world and I 
think this type of real hearings that we have, field hearings 
are so important. I think it is important for members of the 
Homeland Security Committee to travel around the country to see 
what is being done by local officials. I would rather have 
those ideas come up from the local governments or local 
officials or private sector instead of Washington telling you 
what the, you know, what the answers are. It should be the 
other way and this is why we are here today. We are all very 
well aware of the disasters that all disasters are local and 
you can bear a large majority of the responsibilities for 
protecting the citizens. While I continue to believe that more 
dollars need to be allocated to many of our first responders, 
grant programs, as you know, of the Subcommittee that we are in 
that is where the dollars are at. A majority of the 
preparedness dollars will always come from the local level that 
is the partnership that we work together.
    All right. During this hearing we will look forward to 
discussing such issues that how reforms to FEMA are changing 
preparedness at the local level. How grant funds administered 
by the Department of Homeland Security are being utilized. How 
citizen preparedness efforts can be more effective, and whether 
we are doing enough in the areas of public health preparedness. 
I also look forward to discussing the issue of evacuation 
planning. Northeastern Pennsylvania is in a very unique 
geographic area. You are in close proximity to both New York 
and Philadelphia and would clearly feel the effects and the 
need to be prepared for a large-scale evacuation of those 
cities.
    In closing, Hurricane Katrina and the subsequent flooding 
of New Orleans exposed significant flaws in our Government's 
ability to prepare for, mitigate against, respond to and 
recover from this type of major disasters. The committee is 
determined to work closely with State and local officials as we 
reform FEMA and the Department of Homeland Security to ensure 
that this never happens again. Some progress has been made but 
more challenges still remain and we have a lot of work to do 
and this is why I want to thank all the witnesses here today 
because we certainly want to gather the information. We 
certainly want to learn from you as we do our work.
    At this time the Chair is happy to recognize the Ranking 
Member of the Subcommittee on Emergency Communications, 
Preparedness, and Response, the gentleman from Pennsylvania, 
Mr. Dent, for an opening statement.
    Mr. Dent. Thanks, Mr. Chairman. Thank you for being here. 
Thank you for the kind words and all the courtesies you 
extended us just by being here today. I very much appreciate 
that. And it was just about two years ago this time, two years 
ago two weeks, I guess, that Chairman Cuellar and I spent time 
in Iraq together flying over the country at 200 feet for a few 
hours. That was an experience from Kirkuk to Baghdad, and about 
a year ago this time, he and I were on the border and he 
represents Laredo, Texas, the largest inland port in the United 
States. That and I guess the Port of Detroit. On the southern 
border it is the largest inland port I had a great experience, 
and again, spent a good part of the day in a helicopter with 
him. I won't tell you what happened in that helicopter but it 
was just as hot as Iraq and we didn't have to wear body armor 
in Laredo. But it was a great experience and I got a chance to 
visit his community and his constituency and it is really quite 
a dynamic area, Laredo, Texas. You really get to understand the 
impact of trade just by visiting a community like Laredo, Texas 
and the farsighted leadership in his community. Chairman 
Cuellar has been a tremendous leader in the Congress. We were 
elected together back in 2005 and I really enjoyed that 
opportunity to spend time with him down in his hometown. And 
you really learn a great deal about of America if you visit a 
place like Laredo, that is one thing I will tell you. I'd, 
also, like to thank all the students who are here today, 
delighted that you have joined us, as well as many in the first 
responder community.
    This Subcommittee often discusses important issues about 
first responders, preparedness, and community engagement while 
we are in Washington. It is not often, however, that we are 
able to hold this type of a field hearing right here in our 
community to talk about two issues that are important to all of 
us: natural disasters and acts of terrorism. And, of course, 
living here in Pennsylvania, you know, we are a very flood-
prone State as you can well imagine and this community has 
suffered three significant floods over the past two years. And 
that is something that we keep a great deal of watch on as 
members of this Subcommittee in addition to terrorism. We look 
at both man-made and natural disasters as a part of our 
mission.
    Therefore, I am extraordinarily pleased that we are seizing 
this unique opportunity here in Bethlehem, particularly since 
September is designated as National Preparedness Month. And 
today's hearing will bring together representatives of key 
Federal, State, and local agencies involved in emergency 
management planning, preparedness for a pandemic or other 
public health emergency, evacuation and shelter plans--and 
given, our proximity to New York, that is obviously a very 
significant concern, as well as our proximity to Philadelphia 
and, of course, in ensuring that our firefighters, police, 
emergency managers receive the proper training and equipment to 
effectively fulfill their duties. So I look forward to hearing 
from these witnesses on how they are working together to 
coordinate their various planning efforts and resources to 
strengthen our overall preparedness.
    We, also, have with us a representative today from Wall 
Street West, my good friend, Chad Paul, who needs no 
introduction here. He is with Ben Franklin Technology Partners. 
Wall Street West is a new initiative designed to make sure that 
the financial services community is fully prepared to continue 
operations in the wake of a disaster ocurring in the New York 
metropolitan area. And so that is an extraordinarily important 
initiative that I think many of us want to learn more about 
that. The Securities and Exchange Commission has had a great 
deal to say about that particular issue and we will hear more 
from Chad Paul about that. But I look forward to discussing 
this unique effort by Wall Street West and, you know, how it is 
going to strengthen the preparedness and resiliency of the 
business community and how it could potentially impact our 
Lehigh Valley.
    Again, I once more want to thank our good friends here at 
Northampton Community College for allowing us to hold this 
hearing on the south campus. And, also, thanks too for bringing 
the check, the $1.2 million and the EDA Grant, that is nice 
that you brought that here. And, of course, I should, just by 
way of a commercial, note that Northampton Community College is 
very active in local emergency preparedness and response 
efforts. Not only does the college offer a degree program in 
emergency services, but it also has developed a program to 
deliver emergency response training based on the National 
Incident Management System. This approach has fostered greater 
coordination between local government and the community and has 
received attention as a possible national model to promote what 
we refer to as NIMS, the National Incident Management System, 
compliance. So thank you to Northampton Community College for 
your leadership in that area.
    And, again, thanks to the all witnesses here today. We look 
forward to receiving your testimony. Again, speciall thanks to 
my good friend, Henry Cuellar. We have been able to work, I 
think, in a wonderful bipartisan manner in Washington and it 
has been, you know, when we talk about business it is not about 
Republicans or Democrats. It is about doing what is best for 
this country and for our communities and for the security of 
our homeland. So with that, thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Dent. And, again, really 
committee rules any other members of the subcommittee that are 
not present here may submit their opening statements for the 
record. Also, for any of the witnesses or anybody that needs to 
say anything I know we got our staff here and I certainly want 
to thank our staff for the work that they have done for putting 
this together. The other thing is as we get started the first 
field hearing of the subcommittee for this Congressional, this 
Legislative Session is here. This is the first one that we have 
had, the first field hearing so it really speaks very highly of 
the work that Mr. Dent has done and I certainly want to 
recognize him for his work.
    At this time I would welcome our panel of witnesses. Our 
first witness is Mr. Jonathan Sarubbi who is a Regional 
Administrator for FEMA Region III for the Department of 
Homeland Security. Mr. Sarubbi was appointed to this position 
in March of 2007. He spent 26 years in the Coast Guard 
specializing in marine safety, port security and collusion 
response. Welcome.
    Our second witness is Mr. Robert French who is the Director 
of the Pennsylvania Emergency Management Agency. Mr. French was 
appointed by Governor Edward Rendell on July 20, 2007. He has 
been directly involved in emergency management operations for 
more than 30 years. Again, welcome.
    Our third witness is Mr. Robert Werts and is the Program 
Manager for the Northeast Pennsylvania Regional Counter 
Terrorism Task Force. Prior to being in this position he was a 
member of the Pennsylvania State Police for nearly 35 years. 
Welcome.
    Our fourth witness is Ms. MaryAnn Marrocolo who is the 
Deputy Manager Director for Emergency Management for the City 
of Philadelphia. Before that she spent over seven years with 
the New York Office of Emergency Management pending her tenure 
there as the Assistant Commissioner for Planning and 
Preparedness. Welcome.
    Our fifth witness is our last witness is Mr. Chadwick Paul 
who is the Chief Executive Officer of the Ben Franklin 
Technology Partners of Northeast Pennsylvania. He is appearing 
this morning on behalf of the Wall Street West. Welcome.
    Again, to all of you we are very pleased to have you here. 
Without any objections the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
or her statement for five minutes beginning with Mr. Sarubbi.

  STATEMENT OF JONATHAN SARUBBI, REGIONAL ADMINISTRATOR, FEMA 
          REGION III, DEPARTMENT OF HOMELAND SECURITY

    Mr. Sarubbi. Good morning, Chairman Cuellar and Congressman 
Dent. It is indeed a pleasure to be here this morning to talk 
about FEMA preparedness, mitigation, and response and recovery 
activities within Region III. My name is Jonathan Sarubbi and I 
am privileged to serve as the Region III Administrator for the 
Department of Homeland Security's Federal Emergency Management 
Agency in Philadelphia. Thank you for inviting me to appear 
before you today. My objective is to highlight for you the 
steps FEMA in Region III have taken to strengthen the region 
and improve our relationships with our Federal, State and local 
partners. I will also discuss our readiness for natural and 
man-made disasters.
    As a Regional Administrator I oversee FEMA's all-hazard 
preparedness and emergency management efforts in Delaware, the 
District of Columbia, Maryland, Pennsylvania, Virginia and West 
Virginia. Helping me to carry out my duties are nearly 90 full-
time employees along with more than 400 disaster reservists. 
Since 2002 Region III has responded to and assisted with the 
recovery from 46 major disaster declarations and 11 emergency 
declarations providing more than $1.1 billion in assistance to 
over a quarter of million residents. During the same period 11 
disaster declarations in the Commonwealth of Pennsylvania have 
resulted in the distribution of just 386 million in disaster 
assistance to nearly 50,000 families, State and local 
governments and some private non-profit entities.
    FEMA Region III has been working diligently to build a 
strong, capable and responsive region. This progress is 
exemplified in the work we have done in the terms of 
partnerships, training, exercises, gap analysis and citizen 
preparedness. Let me briefly elaborate on these efforts. The 
worse time to build relationships is during a disaster. Region 
III is working aggressively to enhance communication with 
Federal, State and local leaders. We maintain a wide variety of 
relationships with emergency management officials from all 
levels of government and law enforcement, ranging from State 
emergency management agencies to antiterrorist task forces such 
as the Southeastern Pennsylvania Regional Counter Terrorism 
Task Force and the Antiterrorism Advisory Counsels established 
by the U.S. Attorney's Office.
    Additionally, FEMA and the Department of Defense have taken 
major strides to ensure that the Federal and military response 
is coordinated and seamless especially at the regional level. 
Region III's defense coordinating element serves as the single 
point of contact for the command and control of active duty 
forces assigned to respond in an emergency operation. FEMA's 
Regional III's exercise officer coordinates our preparation or 
excuse me, participation in Federal, State and local exercises 
as well as handles our assistance to other agencies in the 
planning, execution and evaluation of their exercises. Region 
III has participated in and facilitated many all-hazard 
exercises including oil and hazardous material spills, agro-
terrorism, terrorism and pandemic flu exercises.
    One of the most visible and successful exercises was the 
2007 Liberty Down exercise held on February 8, 2007. Partnering 
with the Philadelphia Federal Executive Board and the 
Southeastern Pennsylvania Regional Task Force, this exercise 
tested and evaluated the ability of organizations to activate 
their continuity of operations plans during a natural 
emergency. Approximately 600 participants from 102 Federal, 
State and local agencies as well as the private sector 
participated in this event. It was one of the nation's largest 
and most successful continuity of operations planning 
exercises. Building on this event a full-scale exercise is 
being planned for 2008.
    The old paradigm we are waiting for State and local 
governments to be overwhelmed before providing Federal 
assistance is a thing of the past. We are leaning forward to 
anticipate the need or the needs of our State and local 
partners and to fill them as quickly as we can. One of the ways 
which we are preparing for this proactive response is by 
partnering with our States in something we call a gap analysis. 
Since March we have been working closing with our hurricane-
prone States using a consistent set of measures and tools to 
evaluate strengths and vulnerabilities. The focus of the 
assessment is on debris removal, interim housing, sheltering, 
evacuation, commodities distribution, medical communications 
and fuel needs. As a part of this initiative we have entered 
into partnerships with State and local agencies far beyond our 
traditional emergency management agencies to rely--to really 
understand their roles in disasters and their capabilities. To 
accomplish this Region III deployed a task force to Delaware, 
the District of Columbia, Maryland and Virginia. As this 
assessment tool is further developed into an all-hazards 
program we anticipate similar efforts with the Commonwealth of 
Pennsylvania and West Virginia.
    Another initiative that is equally important is our citizen 
preparedness. FEMA is working to build a culture of 
preparedness in America. DHS and FEMA administers three main 
initiatives to achieve this goal, the Ready Campaign, FEMA's 
community preparedness informational materials, and the 
Citizens Corps. Region III has emphasized individual 
preparedness in press releases, Congressional advisories, 
public service announcements, region-wide displays in 
libraries, and even in customer bill inserts through the Cox 
Communications Cable Network. Stressed are three key points: be 
informed about the types of emergencies that could possibly 
occur, assemble an emergency supply kit, and have a family 
communications plan.
    Building upon the agencies Get Ready 1907 hurricane 
awareness campaign, Region III held a Safety and Health Expo on 
June 14, 2007, on the historic grounds of Independence Mall in 
Philadelphia, bringing together more than 40 vendors from 
Federal, State and local agencies as well as the private 
sector.
    Also, Region III's Citizen Corps program works daily to 
support State and local efforts. In the region, there are 144 
Citizen Corps county councils and 60 local councils. Here in 
the Commonwealth of Pennsylvania there are 46 Citizen Corps 
county councils and four local councils. Since 2003, the 
Department has provided Pennsylvania Citizen Corps programs 
with more than $3.7 million which has resulted in education and 
training of Commonwealth citizens.
    As I speak, Citizen Corps councils throughout the nation 
are fully engaged in events for Ready Campaigns National 
Preparedness Month. This year's campaign is developed around 
four weekly themes meant to engage and educate families, 
neighborhoods, and citizens across the region. This week's 
theme is business preparedness.
    Let me now discuss the impact of recent legislation reforms 
on FEMA's mission. The post-Katrina Management Reform Act of 
2006 which was signed into law on October 4, 2006, has 
significantly expanded FEMA's mission and authorities. In 
April, several key programs from the former Department of 
Homeland Security's preparedness directorate transferred into 
FEMA, including the Ready Emergency Preparedness Program, 
Citizens Corps, Assistance to Firefighters Grant Program, the 
Office of National Capitol Region Coordination, and the Office 
of Grants and Training. These programs are currently managed at 
the headquarters level, however, there are working groups 
currently working to integrate these programs responsibilities 
into the regional offices across the country. This 
restructuring has resulted in a new FEMA, strengthening our 
all-hazards operational framework and coordination 
capabilities.
    We will soon bring aboard a Federal Preparedness 
Coordinator or FPC. The FPC's primary role will be to 
coordinate the establishment of regional, domestic, all-hazard 
preparedness goals and play a vital role in information sharing 
and relationship building. The FPC will particularly improve 
the region's readiness by strengthening links with State 
Homeland Security Advisors, Fusion Centers, Joint Terrorist 
Task Force.
    In addition to the FPC we are increasing our disaster 
operations and disaster assistance staffs to strengthen our 
capabilities and expertise in those areas. We are also finding 
ways to better utilize skilled staff we have, for example, 
implementing a specialized planning unit to coordinate 
contingency planning across the region.
    Responding to the many lessons emerging from the aftermath 
of Hurricane Katrina, FEMA has invested heavily to improve its 
capabilities in several areas to better prepare for and respond 
to disasters. These include communications in disaster 
operations, disaster assistance, logistics management, and 
operational planning. My written testimony expands on these 
areas in greater detail but given their importance let me 
briefly highlight a few of them.
    Within the regional office we are making technological 
improvements to enhance our ability to coordinate with our 
Federal, State and local partners during an incident by 
upgrading our Regional Response Coordination Center. The Center 
is the central location where Federal agencies locate forming a 
regional command center to coordinate the regional disaster 
response. Enhancements include an upgraded computer system and 
extended audiovisual systems for situational awareness which 
increase the reporting capability throughout the regional 
office. Our video teleconferencing capabilities will be 
upgraded in the near future allowing FEMA headquarters national 
response coordination to contact with the RRCC in real time.
    To meet the needs of catastrophic incident a new policy 
allows States to request a Pre-Disaster Emergency Declaration 
when they are threatened by a natural or man-made incident that 
could result in a major disaster. This new form of declaration 
would make Federal aid available in advance of a disaster and 
would provide equipment, supplies, and advance deployment of 
those response teams.
    Lastly, the Regional Advisory Council and the Regional 
Emergency Communication Coordination Working Group are being 
established and will advise me on all aspects of emergency 
response management and communications. Both groups will 
consist of representatives from all levels of government, 
Federal, State, and local, as well as the private sector.
    In conclusion, I believe real progress has been made in 
strengthening FEMA's regions and as a result Region III 
continues to enhance its capabilities to respond to disasters 
of any kind. Ultimately, the new FEMA we are creating will keep 
the American people better prepared across the spectrum of all 
hazards and safer than they were before.
    Thank you for your time and I look forward to answering 
your questions.
    [The prepared statement of Jonathan Sarubbi follows:]

                 Prepared Statement of Jonathan Sarubbi

INTRODUCTION
    Chairman Cuellar, Ranking Member Dent, and members of the 
Committee.
    My name is Jonathan and I am privileged to serve as the Region III 
Administrator for he Department of Homeland Security's Federal 
Emergency Management Agency (FEMA) in Philadelphia.
    Thank you for inviting me to appear before you today to highlight 
for you the steps FEMA and Region III have taken to strengthen the 
region and improve our relationships with our Federal, State and local 
partners to ensure we are prepared to respond successfully to future 
disasters. Let me begin with a brief overview of Region III and my role 
as the Regional Administrator.

Overview of Region III
    As the Regional Administrator, I oversee FEMA's all-hazards 
preparedness and emergency management efforts in Delaware, the District 
of Columbia, Maryland, Pennsylvania, Virginia, and West Virginia. As 
the primary FEMA representative and coordinator for this region, I 
oversee the development, implementation and execution of all of FEMA's 
programs and initiatives, and work with State and local partners and 
the private sector to build a strong, capable, and responsive region.
    Helping me to carry out my duties are nearly 90 dedicated full-time 
employees along with more than 450 disaster reservists, commonly known 
as Disaster Assistance Employees. Our Defense Coordinating Element 
(DCE) from U.S. Army-North, is co-located with us in Philadelphia. The 
DCE is a full-time, seven-person element that interacts daily with 
Region III personnel and leadership to provide expertise and support to 
our ongoing planning efforts.
    Let me also briefly share with you the scope of disaster assistance 
provided by Region III since 2000. We have responded to and assisted 
with the recovery from 46 major disaster declarations and 11 emergency 
declarations. In so doing, we have provided assistance to over a 
quarter of a million residents, disbursing over $1.1 billion in Federal 
assistance.
    Pennsylvania alone has received 11 major disaster declarations for 
severe storms and flooding. Of these, nine were major disaster 
declarations and two were emergency declarations. Through the 
Individual Assistance Program, $13 3.6 million was awarded. Under the 
Public Assistance Program, $253.3 million was awarded to eligible State 
and local governments as well as some private nonprofit organizations.

Legislative Reforms Strengthen FEMA/Region III
    The Post-Katrina Emergency Management Reform Act of 2006 (PKEMRA), 
which was signed into law by President Bush on October 4,2006, calls 
for a major transformation by integrating preparedness and grant 
missions with legacy missions to create what we refer to as ``New 
FEMA''. This transformation will, in part, strengthen FEMA's 10 
regional offices and strengthen our all-hazards operational framework 
and coordination capabilities. All of these actions are consistent with 
the for a New FEMA. Working groups are reviewing our structure and key 
processes to develop a regional implementation plan that will integrate 
these programmatic organizational changes seamlessly at the regional 
level.
    Many of the changes associated with the New FEMA are already being 
implemented within Region III. This includes communication, 
collaboration and alignment with new organizational elements at the 
Headquarters level. We frequently coordinate programs and exercise 
activities with them, sharing information, and participating in joint 
events such as annual Grants Monitoring Visits and the Southeastern 
Pennsylvania Regional Counter Terrorism Task Force's Tri-State 
Preparedness Conference. We expect that the New FEMA structure will 
allow us to formalize these relationships and enhance our coordination 
in order to provide more seamless support to Pennsylvania and the 
country as a whole.
    Pennsylvania consistently leads the nation in funds received 
through the Assistance to Firefighters Grant (AFG) Program. FEMA staff 
support fire AFG applicants by offering workshops which help prepare 
organizations to write their grant proposals, by offering technical 
assistance, and by monitoring grants. Under the FY 2006 AFG Program, 
2,344 awards were made totaling $194,429,925. During that time, one 
significant award was made to Lancaster County through the Upper 
Township Fire Department, representing more than 80 fire departments. 
This grant, which totaled $1 million, the maximum allowed by law, will 
be used in an effort to address the population growth and increased 
risk experienced by Lancaster County. The project's scope includes the 
purchase and execution of a multi-band frequency and standardized 
communications equipment to replace obsolete and inoperative 
communications equipment. The outcome will be an interoperable 800MKZ 
system to talk directly with other emergency services disciplines, such 
as police, EMS, emergency management, local municipalities, State or 
Federal agencies.
    Another of the specific changes coming very soon is the hiring of a 
Federal Preparedness Coordinator, or FPC. Region III is in the process 
of selecting a strong and experienced leader to fill this position. The 
FPC's primary role will be to improve the region's all-hazard 
preparedness posture by strengthening links with State Homeland 
Security Advisors, fusion centers, and joint terrorism task forces. One 
of the key responsibilities will be to develop integrated plans and 
courses of action based on risk and capabilities assessments to enhance 
the region's readiness preparedness to prevent, protect against, 
respond to, and recover from all hazards.
    Responding to the many lessons emerging from the aftermath of 
Hurricane Katrina, FEMA has invested heavily to improve its 
capabilities in several areas to better prepare for and respond to 
disasters. These include, among others, communications and disaster 
operations, disaster assistance, logistics management, operational 
planning, and other preparedness initiatives.

    First: Communications and Disaster Operations.
    We are making technological improvements to enhance our ability to 
coordinate with our Federal, State, and local partners during an 
incident. For example, we are upgrading our Regional Response 
Coordination Center (RRCC), which is the central location where Federal 
agencies co-locate forming a regional command center during a disaster 
to coordinate regional response under the current National Response 
Plan (NRP). We have upgraded our computer system and extended the video 
teleconferencing systems to increase situational awareness, thereby 
increasing reporting capacity throughout the regional office. This new 
system allows for local IT personnel to readily replace systems in the 
event of unit failure. The extension of the RRCC audio visual system to 
all conference rooms allows for staff and our Federal partners 
throughout the office to view current situational updates and 
participate in briefings without leaving their work locations.
    Additional enhancements are under contract to add monitors for 
increased situational awareness and upgraded video teleconferencing 
capabilities. These enhancements will allow the National Response 
Coordination Center to connect to the RRCC in real time providing FEMA 
Headquarters and the region with the most current situational 
assessment for decision making purposes.
    We are also in the process of hiring a full-time subject matter 
expert in field deployable emergency communication systems to promote 
our ability to communicate effectively during disasters and 
emergencies.
    To further enhance disaster response capabilities, FEMA is 
developing the next generation of rapidly deployable interagency 
emergency response teams--Incident Management Assistance Teams, or 
IMATS. The primary mission of a FEMA or IMAT will be to rapidly deploy 
to an incident or incident-threatened venue and provide leadership to 
meet the emergent needs of State and local jurisdictions and support 
the initial establishment of a unified command. When not deployed, the 
teams will train with Federal, State, local, and tribal partners and 
provide a training capability to elevate State and local emergency 
management capabilities. The teams will also engage in consistent and 
coordinated operational planning and relationship building with State, 
local, and other stakeholders. Eventually, each FEMA region will have 
an IMAT team. Currently, FEMA is recruiting for positions on the teams 
that will be assigned to FEMA Headquarters in Washington, D.C., and 
Regions IV, V, and VI. FEMA expects to establish a team in each 
remaining Region by 2010.
    PKEMRA also provides for the creation of a Regional Advisory 
Council (RAC) and a Regional Emergency Communications Coordination 
Working Group (RECCWG), which are both being established in Region III. 
Both groups will consist of representatives from all levels of 
government. While the RAC will advise me on all aspects of emergency 
management within Region III, the RECCWG will advise me on all aspects 
of emergency communications. I am in the process now of reviewing the 
nominations of candidates to serve on these committees. This RECCWG 
will, of course, fully support the ongoing communications improvements 
that the Commonwealth is already developing, including the roll out of 
the statewide voice and data interoperability across the State's 800 
MHz Public Safety Radio Network connecting key State agency 
headquarters and field operations, the 67 county emergency managers and 
9-1-1 centers, State health department locations, and Pennsylvania 
State Police consolidated dispatch centers across the State. In the 
Commonwealth allocated more than $18 million of DHS funding for 
additional interoperable communications investments. Pennsylvania will 
also receive more than $34 million from the DHS/Department of 
Commerce's Public Safety Interoperable Communications grant program 
(PSIC) to further their capacity throughout the Commonwealth. FEMA is 
committed to assisting with this progress wherever possible.

    Second: Disaster Assistance.
    To meet the needs of a catastrophic incident, we have enhanced our 
ability to register up to 200,000 disaster victims and inspect up to 
20,000 homes per day. Mobile Disaster Recovery Centers (DRCs) will be 
employed during these large-scale disasters. DRCs are facilities that 
provide on-site disaster assistance to victims, allowing them to 
register for temporary housing, grants, and other aid.
    When States are immediately threatened by a natural or man-made 
incident that could result in a major disaster, States can now request 
a pre-disaster emergency declaration. This new form of declaration 
would make Federal aid available in advance of a disaster, and would 
provide equipment, supplies, and the advance deployment of response 
teams. In concert with our forward leaning posture, we are implementing 
policies that will allow us to anticipate the States' needs and to fill 
them quickly.
    To help enhance awareness and increase the preparedness and 
readiness levels of our State, tribal and local partners for future 
disaster operations, FEMA Region III has been very proactive, forward 
leaning and diligently to implement an aggressive education and 
training program for State, tribal and local officials through 
consultation and collaboration with various components of the Public 
Assistance program at both, the Headquarter and regional level. Our 
ongoing training and outreach efforts are intended to strengthen our 
existing relationships with State and local governments, while 
enhancing readiness capabilities of agencies and individuals involved 
in response and recovery operations, and provide the necessary tools to 
encourage more decisive actions during the grant award process.

    Third: Logistics.
    To be effective, we must be able to get what we need, where we need 
it, when we need it. Along these lines, a Logistics Management 
Directorate has been established at FEMA Headquarters and is to develop 
a system for full asset visibility. Region III logistics personnel have 
been trained to operate key components of a new system called Total 
Asset Visibility, which will enable them to submit requests for 
resources and to track the locations of shipments.
    We are ready to answer the call to deliver the commodities and 
capabilities that the States request. Partnerships with the Defense 
Logistics Agency, U.S. Army Corps of Engineers, General Services 
Administration and others are allowing us to strategically plan for 
this storm season and to lessen reduce the amounts of pre-positioned 
commodities, yet still be confident that we can meet requirements.
    There are two logistics centers located in our region--Cumberland, 
Maryland and Frederick, Virginia. They are fully stocked for this storm 
season. We also have agreements with 10 National Guard and Department 
of Defense bases to establish Federal staging areas to receive and 
distribute commodities to State-operated points of distribution. One of 
these is located at the Willow Grove Naval Air Station outside of 
Philadelphia, where major air-oriented response and recovery operations 
will be conducted.

Fourth: Operational Planning.
    The establishment of an all-risk Planning Unit in FEMA Region III 
has been a long standing regional priority. Effective July 30,2007 in 
an effort to create a unified and concentrated focus, Region III stood 
up a Planning Unit within our National Preparedness Division. This unit 
will coordinate externally with our partners and internally with 
regional functions in producing operational and contingency plans and 
managing assessments. Placing the Planning Unit in our National 
Preparedness Division will draw on the synergy of the existing 
Continuity of Operations Program, exercises, National Incident 
Management System (NIMS), and agency grant programs that form the core 
components of regional preparedness. The overall emphasis of this team 
will be on all-hazards planning and will produce a more robust field 
organization with increased capability to deliver frontline services.
    With the impending addition of emergency response operations and 
planning staff, we will greatly enhance our situational awareness and 
planning capability, as regional monitoring via the RRCC will be 
increased to 24-hours, 7-days a week.

Regional Preparedness Activities
    Under the New FEMA, we are strengthening coordination with other 
DHS components, incorporating the concept of preparedness into all FEMA 
programs, and enhancing our ability to partner with State and local 
emergency management organizations, as well as the private sector. 
Through our partnerships and programs we are significant progress daily 
in preparing Region III for disasters--both natural and man-made. I 
will elaborate on these efforts:

Citizen Preparedness
    FEMA is working to build a culture of preparedness in America. DHS 
and FEMA administer three main initiatives to achieve this goal--the 
Ready Campaign, community preparedness informational materials, and 
Citizen Corps.
    Ready is the Department's public awareness campaign to encourage 
people to take simple steps to make themselves and their families 
prepared for emergencies. Understanding that assistance may be several 
days away after a catastrophic disaster, citizens have an important 
role in preparing for the first 72 hours following an incident. Region 
III has emphasized individual preparedness in press releases, 
congressional advisories, Public Service Announcements, wide displays 
in libraries, and even in customer bill inserts through the Cox 
Communications Cable Company. We stressed three key points: be informed 
about the types of emergencies that could occur, assemble an emergency 
supply and have a family communication plan.
    Building upon the ``Get Ready '07'' hurricane awareness campaign, 
Region III held a Safety and Health Expo on June 14, 2007 on the 
historic grounds of Independence Mall in Philadelphia, bringing 
together more than 40 vendors from Federal, State and local agencies as 
well as the private sector. The expo provided an opportunity for 
vendors to provide information on safety, health, and citizen 
preparedness.
    Region III's Citizen Corps program works daily to support State and 
local efforts. In the region, there are 144 Citizen Corps county 
councils and 60 local councils. Here in the Commonwealth of 
Pennsylvania, there are 46 Citizen Corps county councils and 4 local 
councils. Since 2003, the Department has provided the Pennsylvania 
Citizen Corps Program with $3,760,025 and the program has used that 
money efficiently to educate and train Commonwealth citizens. Since 
2004, Pennsylvania Citizen Corps volunteers have logged thousands of 
hours executing events and presenting information about emergency 
preparedness to over 179,000 Pennsylvania citizens. Outreach has been 
conducted at county and safety fairs, senior expos, and open houses at 
schools. Audiences have ranged the gambit from Chambers of Commerce to 
Girl and Boy Scout troops, daycares, and senior centers. Pennsylvania 
Citizen Corps Councils have trained 3,441 citizens in Community 
Emergency Response Team (CERT) training since 2004. During that same 
time period 8,427 citizens received other emergency preparedness 
training, including Damage Assessment, Pandemic Flu Preparedness, 
American Red Cross training, training, and NIMS, among others. 
Pennsylvania Citizen Corps is currently to bring both Campus CERT and 
Teen CERT programs to Pennsylvania.

Partnerships
    The worst time to build relationships is during a disaster. Region 
III is working aggressively to improve communications with Federal, 
State and local leaders. We maintain a wide variety of relationships 
with emergency management officials in all levels of and law 
enforcement, including:
        <bullet> State Emergency Management Agencies
        <bullet> The Anti-Terrorism Advisory Councils (ATAC) (including 
        Philadelphia and Pittsburgh)
        <bullet> The Southeastern Pennsylvania Regional Counter 
        Terrorism Task Force
        <bullet> The Pittsburgh ``Region 13'' Regional Counterterrorism 
        Task Force
        <bullet> The Regional Response Team (RRT)
        <bullet> The Area Committee (AC) and Area Maritime Security 
        Committee (AMSC) Continuity Of Operations (COOP) coordination 
        with the Federal Executive Boards (FEB) (Philadelphia and 
        Pittsburgh)
        <bullet> Delaware Valley Fusion Center
    In May of this year, the Regional Interagency Steering Committee 
(RISC) meeting and Response and Recovery/Mitigation Summit were held at 
the Philadelphia regional office. More than 100 Federal and State 
officials attended. Region III holds RISC meetings semiannually to 
share information on Agency policies and procedures and to discuss 
initiatives that relate to disaster operations/assistance and 
mitigation. RISC members represent the agencies that would respond to a 
major disaster under the current National Response Plan.
    Additionally, FEMA and the DoD have taken major strides to ensure 
that Federal and military response is coordinated and seamless, 
especially at the regional level. Region III's Defense Coordinating 
Element (DCE) serves as the single point of contact for the 
coordination and validation of civilian requests for support and for 
the command and control of active duty forces assigned to response 
operations. The Region III DCE has been active throughout the region. 
In Pennsylvania, the DCE participated in three major exercises over the 
last year in conjunction with the Pennsylvania Army National Guard. The 
Defense Coordination Officer, Colonel James met personally with the 
Director of the Pennsylvania Emergency Management Agency in April and 
the Pennsylvania Adjutant General in May.

National Response Plan and National Incident Management System
    Pennsylvania Emergency Management is the lead agency for 
implementation of NIMS and the current National Response Plan (NRP) 
within the Commonwealth of Pennsylvania, and we are committed to 
supporting PEMA. Pennsylvania faces many unique challenges in 
implementing NIMS. Their primary challenge is the fact that their 2,567 
municipalities often lack dedicated staff assigned to emergency 
management. Region III has frequent interaction with the PEMA NIMS 
Coordinator, providing technical assistance and clarifying NIMS 
guidance. The PEMA Coordinator participated in the quarterly Region III 
NIMS Conference calls and the 2007 NIMS Implementation Workshop. 
Additionally, PEMA has included the Region III NIMS Coordinator in 
their Statewide NIMS implementation conference calls.
    As I am sure you are aware, the NRP is in the process of being 
revised and will be superseded by the National Response Framework. 
Federal, State, local communities, the private sector, and non-
governmental organizations have submitted more than 3,000 comments for 
consideration so far, with the final 30-day comment period beginning 
this week. As this document is distributed for comment,, we will again 
facilitate delivery of this product to the Commonwealth and provide 
opportunities for comment.

Exercises/Training
    FEMA Region III's exercise officer coordinates our participation in 
all Federal, State and local exercises, as well as handles our 
assistance to other agencies in the planning, execution, and evaluation 
of their exercises. Region III has participated in and facilitated many 
all-hazards exercises, including oil and hazardous materials spills, 
agro-terrorism, terrorism, Pandemic and Avian flu planning. One of the 
most visible and successful exercises was the ``2007 Liberty Down.''
    On February 8, 2007, we joined the Philadelphia Federal Executive 
Board (FEB), and the Southeastern Pennsylvania Regional Task Force to 
host ``Liberty Down,'' an exercise designed to test and evaluate the 
ability of organizations to activate their continuity of operations 
plans during a natural emergency. The exercise focused on the 
capability of the Federal community to communicate and work effectively 
with various State and local agencies responsible for emergency 
services and safety. Approximately 600 participants 102 State, local, 
Federal agencies, and the private sector participated in this event--
one of the nation's largest and most successful COOP exercises. The FEB 
and group are already forward to building on this event with a full-
scale exercise to follow in 2008. Pittsburgh is currently planning a 
similar event for 2008.

Mitigation
    On May 1, 2007, Regiion III's Mitigation Division was restructured 
to better manage the full range of mitigation programs and to allow the 
organization to effectively fulfill its response duties. There are now 
three branches: Rick Analysis; Floodplain Management and Insurance; and 
Hazard Mitigation Assistance.
    Through the Agency's Flood Map Modernization Program and many grant 
programs, Region III is working diligently to reduce impacts to the 
region by mitigating risks to life and property.
    The Flood Map Modernization program is a collaborative effort 
between FEMA and its partners to modernize existing Flood Insurance 
Rate Maps. These flood maps are used to identify and manage flood risk. 
The goal is to map the areas where 92 percent of America's population 
lives--covering 65 percent of the land area in the United States. As of 
today, in Pennsylvania, FEMA has issued effective maps for the counties 
of Pike, Northampton, Lehigh, Union, Snyder and Lycoming. In 2008, 
preliminary maps will be released for Montour and Northumberland 
counties. Soon thereafter, in 2009 and 2010, maps will follow for 
Wayne, Lackawanna, Susquehanna, Wyoming, and Bradford and Sullivan 
Counties.
    As of FY 2007, FEMA has authority for five Hazard Mitigation 
Assistance grant programs with unique statutory authorities, program 
requirements and triggers for funding. The programs are the Hazard 
Mitigation Grant Program (HMGP), Pre-Disaster Mitigation (PDM), Flood 
Mitigation Assistance (FMA), Severe Repetitive Loss (SRL), and 
Repetitive Flood Claims (RFC). They all share a common goal-to assist 
State and local communities in their efforts to reduce the loss of life 
and property from natural hazard events.
    In Region III, we have approved or are in the process of approving 
mitigation grants in the following programs:
        <bullet> Under the HMGP, for the disaster declaration issued on 
        June 30,2006, due to severe storms and flooding, grant awards 
        totaling $1,408,609 (Federal Share) have been provided for the 
        acquisition of 23 flood-prone properties in various communities 
        in Lycoming County: Montgomery Borough, Hepburn Township, 
        Loyalsock Township, Old Lycoming Township, Lewis Township, 
        Muncy Creek Township, and Muncy Borough.
        <bullet> The HMGP for the disaster declaration issued on June 
        30,2006, due to severe storms and flooding, as a grant award 
        pending for the acquisition of 14 properties in the Susquehanna 
        County communities of Great Bend Borough, Great Bend Township, 
        New Milford Township, Liberty Township, Hallstead Borough, 
        Franklin Township, Borough of Lanesboro, Oakland Township and 
        Harmony Township. The total for this grant award is $1,727,160 
        (Federal Share).
        <bullet> In the FMA program, we have awarded $290,475 for an 1-
        home acquisition project in Hepburn Township, Lycoming County.
        <bullet>  Since 2005, through the PDM program, Region III has 
        approved mitigation-planning grants for $48,000 in Montour 
        County, $27,000 in Snyder County and $171,000 in Lackawanna and 
        Counties.

Gap Analysis
    One major initiative that is at the core of FEMA's preparations for 
hurricane season is our Gap Analysis tool. Since March, the Agency has 
been working closely with hurricane-prone States and territories, using 
a consistent set of measures and tools to evaluate strengths and 
vulnerabilities. The focus of the assessments is on debris, interim 
housing, sheltering, evacuation, commodity distribution, medical, 
communication, and fuel.
    Partnerships have been crucial throughout this initiative. Region 
III deployed task forces specifically to four States, and partnered 
with the U.S. Department of Health and Human Services to handle the 
medical portions of the Gap Analysis and to identify and resolve 
special medical needs. Also, the Army Corps of Engineers is providing 
modeling to Region III for 14 storm tracks. While the Commonwealth has 
not specifically partnered in this project, we hope that Pennsylvania 
will benefit from some of the information and modeling we are 
developing. We expect this information to assist us in identifying 
vulnerable facilities and populations, ensuring shelters and staging 
areas are in safe locations in all of our States including 
Pennsylvania.
    The old paradigm of waiting for State and local governments to be 
overwhelmed before providing Federal assistance is a thing of the past. 
We are now leaning forward to anticipate the needs that the State 
cannot meet and to fill it them quickly. Over the months since the 
start of the assessments, our relationships with State agencies (beyond 
the emergency management agencies) have strengthened tremendously, 
resulting in greater traction in identifling capabilities and 
shortfalls. As this assessment tool is further developed into an all 
hazards program, we anticipate joining in similar efforts with the 
Commonwealth.

CONCLUSION
    In conclusion, I believe Region III is well prepared to respond to 
major disasters of any kind. Real progress has been made in 
strengthening the regions, and as a result, we:
        <bullet> Are better aligned and focused on helping the mid-
        Atlantic prepare before an event strikes.
        <bullet> Have stronger operational systems and plans in place 
        to improve response and coordination.
        <bullet> Are to find new ways to help communities recover and 
        rebuild after an event strikes.
        <bullet> Are committed to working hand-in-hand with our 
        partners at every level of government as well as those in the 
        nonprofit and private sectors.
        <bullet> Are dedicated to fostering a culture of personal 
        preparedness.
    Ultimately, the new FEMA we are creating will keep the American 
people better prepared across the spectrum of all hazards, and safer 
than they were before, and will as well as make our services in 
partnership with State and local governments and the private sector 
more reliable and accessible.
    Thank you for time, and I look forward to answering your questions.

    Mr. Cuellar. Thank you for your testimony, Mr. Sarubbi. I 
now recognize Mr. French to summarize his statement for five 
minutes.

  STATEMENT OF GENERAL ROBERT FRENCH, DIRECTOR, PENNSYLVANIA 
                        EMERGENCY AGENCY

    Mr. French. Good morning, Chairman Cuellar and Congressman 
Dent. On behalf of Governor Rendell, I thank you for the 
opportunity to discuss Pennsylvania's disaster preparedness, 
response and recovery programs. My name is Robert French and I 
am the Director of PEMA.
    As we all know, tomorrow marks the anniversary of the 
tragic events that occurred six years ago in New York City, 
also at the Pentagon, and certainly right here in Pennsylvania 
in Somerset County. Very few events in the history of this 
nation have so dramatically impacted and forever altered our 
American way of life. The personal freedoms that stood as the 
foundation of this nation were compromised and changed. These 
terrorist attacks also dramatically impacted community 
preparedness programs nationwide. This sequence of events has 
forced us to recognize and to address limitations within our 
first responder programs and emergency preparedness programs 
overall.
    Two weeks ago, Alabama, Louisiana and Mississippi marked 
the second anniversary of Hurricane Katrina, as you well have 
felt the impact in your local area. The impact of the Category 
5 hurricane on the Gulf Coast actually raised questions 
nationwide regarding our collective ability to respond to and 
recover from catastrophic disasters.
    Mr. Chairman, those two seemingly unrelated events have in 
common a devastating impact on our communities, the residents, 
and our first responders. And these two events have 
dramatically changed emergency preparedness policies and 
programs at the Federal, State, county, and community level. In 
many cases these changes are ongoing.
    By State government standards, PEMA is a relatively small 
agency, approximately 160 members. Our overall mission includes 
developing and administering the Commonwealth's comprehensive, 
all-hazards emergency preparedness and response program. In 
order to accomplish this goal, we develop essential 
partnerships with multiple State and Federal agencies, county 
and community emergency managers, first responders, elected 
officials, critical infrastructure providers, and a host of 
other public and private sector partners who play a vital role 
in our on-going efforts to ensure public health and safety in 
our communities. PEMA also employs and deploys the best 
available technologies in support of that critical mission.
    While we are technologically and in some cases 
programmatically advanced over many other State emergency 
management agencies, the true key to our success rests with out 
State and Federal partners, the 67 county emergency management 
officials, 2,500 plus municipal managers, and more than 100,000 
first responders across the State. Our role is to plan, 
coordinate, and manage the Commonwealth's emergency 
preparedness program. Its effectiveness is based upon our 
partners to which great dedication is provided.
    While most of our communities face a multitude of potential 
hazards, as Congressman Dent mentioned earlier, flooding is our 
number one potential disaster here in Pennsylvania. Since 2004, 
the Governor proclaimed 10 disaster emergencies and five major 
disasters were designed by the President releasing Federal 
disaster assistance for victims in our affected communities. In 
all, 65 of our 67 counties were included in these Federal 
declarations and several more than once. More than 60,000 
families and businesses were affected, and approximately 2,000 
communities lost essential public service and infrastructure 
needs. The overall estimate of impact exceeded $500 million.
    The Commonwealth of Pennsylvania with our Federal and local 
government partners and first responders are also hard at work 
capabilities to address man-made events. The Regional Counter 
Terrorism Task Force model was launched in 1998 here in 
Pennsylvania due to the growing threat and the use of the 
weapons of mass destruction. There are nine Regional Task 
Forces in the Commonwealth. They comprise the 67 counties. Each 
Task Force meets regularly to discuss plans and procedures for 
all-hazard preparedness. In order to accomplish this task under 
the umbrella of the Regional Task Forces we are creating 
partnerships that include all aspects of our communities, 
elected officials, first responders, business and industry, 
hospital and the medical community, education, critical 
infrastructure, the volunteer community, the news media, and 
many others are working together to ensure the safety of our 
neighborhoods.
    We are working closely with the Governor's Homeland 
Security Advisor, and other State agencies involved in homeland 
security planning and preparedness in order to ensure a 
coordinated effort at the State, county, and community level 
exists. Collectively we regularly meet with the Regional Task 
Forces as we provide and proceed with the implementation plan 
for Pennsylvania. Since 1999 we have invested more than $350 
million in Federal funds to help our Regional Task Forces 
acquire equipment, prepare plans, and conduct training and 
exercises for and with our community first responders. PEMA 
serves as the State administrative agency and manager to help 
in this important Task Force program.
    The true all-hazards value of the Regional Counter 
Terrorism Task Forces and their weapons of mass destruction 
equipment cache was demonstrated at 5:28 a.m. on January 31, 
2005, when 13 cars from a Norfolk Southern Railroad train 
derailed along the Allegheny River in the Creighton section of 
East Deer in Allegheny County. Four of the cars fell into the 
river. Two of those tankers that ended up in the river were 
filled with anhydrous hydrogen fluoride, a caustic concentrated 
gas that turns into hydrofluoric acid when mixed with water. 
Hydrogen fluoride can cause burns to the skin and eyes, and may 
be fatal if inhaled or absorbed through the skin. Responders 
were fortunate that the cars were under water. That prevented 
the gas from impacting responders and residents down wind. 
Local officials said, however, that death tolls could have been 
very significant had that gas escaped. For the first time all 
responders at the site were wearing appropriate protective gear 
to help protect them. In many cases this equipment was 
purchased by PEMA and shipped to Region 13 through the Regional 
Task Force in Pittsburgh. The source of the funding was the 
Federal Terrorism Preparedness Funding that has been provided 
to us.
    Effective communication is one of the greatest challenges 
to our community emergency response program. Major incidents 
involve multiple response organizations from many areas. Many 
use different radio systems on a range of varied frequencies 
which makes communications and coordination almost impossible. 
PEMA is working with our 800 MHz statewide radio project system 
to develop an interoperable communications capability that will 
allow incident commanders at the scene of a disaster to 
communicate effectively with all responders. We have installed 
800 MHz radios in every 911 center in our counties, and are 
actively engaged in developing methodology to allow 
interoperability communications within each county among all 
first responders.
    And finally, we are very aware of the limited funding and 
need to do more with less. It is our goal to maximize the 
application of funding that we do receive, both from State and 
Federal government. I am confident that by working closely with 
our partners at the Federal, State, county, and community 
level, we can support our first responders and protect our 
communities against the unknown.
    At the end of the day, Mr. Chairman, after a lot of hard 
work and careful investigation in this comprehensive regional 
program which includes necessary equipment, planning, training 
and exercises, Pennsylvania's communities are safer and more 
secure. With your support we will continue to make things even 
better in Pennsylvania.
    It has been a pleasure to address you today. I will be 
happy to respond to any questions that you might have. Thank 
you very much.
    [The prepared statement of Robert French follows:]

                 Prepared Statement of Robert P. French

    Congressman Dent and members of the sub-committee on Emergency 
Communications, Preparedness and Response, on behalf of Governor 
Rendell, I thank you for this opportunity to discuss Pennsylvania's 
disaster preparedness, response and recovery programs.
    Tomorrow marks the anniversary of the tragic events that occurred 
six years ago in New York City, the Pentagon and Somerset County 
Pennsylvania. Very few events in the history of this nation so 
dramatically impacted and forever altered our American way of life. The 
personal freedoms that stood as the foundation of this nation were 
compromised and changed. These terrorist attacks also dramatically 
impacted community preparedness programs nationwide. And this sequence 
of events forced us to recognize and address limitations within our 
first responder and emergency preparedness programs.
    Two weeks ago Alabama, Louisiana, and Mississippi marked the second 
anniversary of Hurricane Katrina. The impact of this category five 
hurricane on Gulf Coast communities in these three states raised 
questions nationwide regarding our collective ability to respond to and 
recover from catastrophic disasters.
    Mr. Chairman, these two seemingly unrelated events have in common a 
devastating impact on communities, residents and first responders. And 
these two events have dramatically changed emergency preparedness 
policies and programs at the federal, state, county and community 
level. In many cases, these changes are on-going.
    By state government standards, PEMA is a small agency with 
approximately 160 personnel. Our overall mission includes developing 
and administering the commonwealth's comprehensive, all-hazards 
emergency preparedness and response program. In order to accomplish 
this goal, we develop essential partnerships with multiple state and 
federal agencies, county and community emergency managers, first 
responders, elected officials, critical infrastructure providers, and a 
host of other public and private sector partners who play a vital role 
in our on-going efforts to ensure public health and safety in our 
communities. PEMA also employs and deploys the best available 
technologies in support of this critical mission.
    For many years, Pennsylvania's emergency management agency and 
programs have been held in high national regard. We were one of the 
first emergency management agencies in the nation to integrate first 
the computer and then satellite technology into our disaster 
preparedness, tracking and management protocols. PEMA is also one of 
the few states in the nation to receive national certification, which 
was the result of pier review reflected against very demanding 
standards.
    While we are technologically and in some cases programmatically 
advanced over many other state emergency management agencies, the true 
key to our success rests with our state and federal partners, the 67 
county emergency managers, 2,500 plus municipal managers and more than 
100,000 first responders across the state. Our role is to plan, 
coordinate and manage the Commonwealth's emergency preparedness 
program. Its effectiveness is based in great measure on the dedication 
and skill of our partners.
    It is essential to understand that all disasters occur at the local 
level. The same holds true for initial disaster response. That is why 
Pennsylvania aggressively maintains a comprehensive training and 
exercise program for all 67 county emergency managers
    While most of our communities face a multitude of potential 
hazards, flooding is the number one disaster potential in Pennsylvania. 
Permit me take a moment to recap the events of the past three years. 
Since 2004, the governor proclaimed 10 disaster emergencies and six 
major floods were designated by the president to receive federal 
disaster assistance. In all 65 of our 67 counties were included in 
these federal declarations, several more than once. More than 60,000 
families and businesses were affected and approximately 2,000 
communities lost essential public infrastructure or services. The 
overall estimate of impact exceeds $400 million.
    It is important to note that PEMA with our county and community 
partners are directly involved in supporting and initiating response to 
disasters and their impact on Pennsylvanians. Last June for example 
flooding in the northeast triggered more than 1,300 rescues, many by 
the National Guard and State Police with support from U.S. Coast Guard 
helicopters.
    Once the initial response phase passes, PEMA turns its attention to 
the recovery phase of the disaster. If the President issues a 
declaration of major disaster, PEMA and the Federal Emergency 
Management Agency (FEMA) establish a Joint Field Office to facilitate 
the recovery. The primary purpose of the Joint Field Office is to help 
Pennsylvania residents, living in a disaster-designated county, who 
suffered damage to get assistance from FEMA and other federal 
agencies..
    The Commonwealth of Pennsylvania with our federal and local 
government partners and first responders are also hard at work 
developing capabilities to address man-made events. The Regional 
Counter-Terrorism Task Force model was launched in 1998 due to the 
growing threat of the use of Weapons of Mass Destruction. There are 
nine Regional Counter-Terrorism Task Forces comprised of all 67 
counties in the Commonwealth of Pennsylvania. Each task force meets 
regularly to discuss plans and procedures for all-hazards preparedness. 
The member counties appoint a task force leader and determine who will 
hold positions in various task force committees. The emphasis for the 
task force model has been predicated on a ``bottoms up'' approach with 
ownership built-in to foster success.
    The task forces have several planning assumptions that guide their 
thinking. These assumptions include: at the start of an event, local 
resources will be overwhelmed; emergency responsibility lies at the 
municipal level; significant state response will take at least four 
hours and significant federal response will take at least eight hours. 
These planning assumptions require that local and county officials be 
the initial responders in an incident, while the state though PEMA will 
provide response resources if requested.
    In order to accomplish this task, under the umbrella of the 
Regional Task Forces, we are creating partnerships that include all 
aspects of our communities. Elected officials, first responders, 
business and industry, hospitals and the medical community, education, 
critical infrastructure, the volunteer community, the news media, and 
many others are working together to ensure the safety of our 
neighborhoods.
    Mr. Chairman, PEMA maintain 24/7 communications with the counties 
through their 9-1-1 centers and county emergency management offices. On 
average about 5,000 incidents are reported to the state's Emergency 
Operations Center (EOC) every year through the Pennsylvania Emergency 
Incident Reporting System (PEIRS). PEIRS is a Web-based, software 
application that provides tools for reporting and managing critical 
events that affect a variety of agencies and organizations.
    We are working closely with the Governor's Homeland Security 
Advisor, the Pennsylvania State Police, the Department of Health, 
National Guard, Department of Environmental Protection and Agriculture 
as well as and other state agencies involved in homeland security 
planning and preparedness in order to ensure a coordinated effort at 
the state, county and community level. Collectively we regularly meet 
with the Regional Task Forces as we proceed with the implementation of 
Pennsylvania's statewide strategy. The Task Force program was 
formalized into state law in 2002 and serves as the foundation for the 
Commonwealth's Counter-Terrorism Preparedness Program.
    There are many elements that go into protecting the commonwealth 
from man-made emergencies. One of the primary keys to keeping the state 
safe is communication. There must be open lines of communication on all 
levels of government. The counties must make the state aware of 
problems and issues they face regarding the goal of protecting the 
commonwealth. In turn, PEMA and OHS along with other state agencies 
like the Pennsylvania State Police, Departments of Health, 
Environmental Protection, Transportation, Military and Veteran's 
Affairs, Education and Agriculture have a responsibility to offer 
support to counties so they can more effectively prepare for a 
potential attack. That support includes assisting county emergency 
managers to develop plans to minimize threats to our security. Another 
form of support comes in the commonwealth's ability to secure federal 
funding for homeland security initiatives on the state, county and 
local level. Since 1999, we have invested more than $400 million in 
federal funds to help our Regional Task Forces acquire equipment, 
prepare plans and conduct training and exercises for and with community 
first responders. PEMA serves as the State Administrative Agency and 
manages this important program on behalf of the Task Forces and first 
responders.
    While we are making significant progress in helping prepare our 
communities for response to terrorist events, it is important to 
remember that we are creating a statewide all-hazards preparedness 
platform that has application for a wide range of natural and man-made 
threats.
    The true all-hazards value of the Regional Counter-terrorism Task 
Forces and their Weapons of Mass Destruction equipment cache was 
demonstrated at 5:28 a.m. on January 31, 2005 when 13 cars of a Norfolk 
Southern Railroad train derailed along the Allegheny River in the 
Creighton section of East Deer, Allegheny County. Four of the cars fell 
into the river. Two of the tanker cars that ended up in the river were 
filled with anhydrous hydrogen fluoride, a caustic concentrated gas 
that turns into hydrofluoric acid when mixed with water. Hydrogen 
fluoride can cause burns to the skin and eyes and may be fatal if 
inhaled or absorbed through the skin. Responders were fortunate that 
the cars were under water that prevented the gas from impacting 
responders and residents down wind. Local officials said that the death 
toll could have been significant had the gas escaped. For the first 
time, all responders at the site were wearing appropriate protective 
gear to help protect them. In many cases this equipment was purchased 
by PEMA and shipped to Region 13, the RCTTF in Pittsburgh. The source 
of the funding was federal terrorism preparedness funding.
    A number of the elements key to our success are already in place 
Effective communications is one of the greatest challenges to our 
community emergency response program. Major incidents involve multiple 
response organizations from many areas. Many use different radio 
systems on a range of varied frequencies, which makes communications 
and coordination almost impossible. PEMA is working with our 800 MHz 
radio project staff to develop interoperable communications 
capabilities, which will allow incident commanders at the scene of a 
disaster to communicate effectively with all responders. We installed 
800 MHz radios in every county 9-1-1 center and are actively engaged in 
developing methodology to allow inter-operable communications within 
each county among all first responders.
    Working with our federal, county and community partners, we are 
moving to the next level in the areas of technology applications, data 
management and information dissemination. Given the challenges we face 
as a nation, it is imperative that we continue to harness the resources 
of modern technology as an important tool within our overall 
preparedness program.
    An example of this type of initiative is the dramatic 
transformation of our statewide satellite-based Emergency Alert System, 
which began four years ago. With the support of radio and television 
stations and cable system operators across the state, emergency 
management officials can alert residents to approaching severe weather 
conditions or accidents that present threats to community safety. The 
most common EAS alerts involve flood and tornado warnings. Rail and 
highway accidents involving dangerous materials as well as accidents in 
the work place can impact neighborhoods. The EAS program provides 
elected officials and emergency managers the capability to provide 
reliable, rapid, widespread public warning.
    Directly related to this vital program is Project Amber which 
allows the State Police to alert area residents when a child has been 
abducted. With the cooperation and support of the broadcast community, 
PEMA is converting this statewide network from a less than reliable 
off-air monitoring system to a state-of-the-art computer controlled 
interactive digital network.
    And finally, we are very aware of the limited funding and need to 
do more with less. It is our goal to maximize the application of the 
funding we receive, both from the state and federal government. I am 
confident that by working closely with our partners at the federal, 
state, county and community level, we can support our first responders 
and protect our communities against the unknown.
    At the end of the day Mr. Chairman, after a lot of hard work and 
careful investment in this comprehensive regional program, which 
includes necessary equipment, planning, training and exercises, 
Pennsylvania's communities are safer and more secure. With your 
support, we will continue to make things ever better.
    It has been a pleasure addressing you today and I would be happy to 
respond to questions.

    Mr. Cuellar. Thank you, Mr. French. Thank you for your 
testimony. I now recognize Mr. Werts to summarize his statement 
for five minutes.

   STATEMENT OF ROBERT G. WERTS, PROGRAM MANAGER, NORTHEAST 
       PENNSYLVANIA REGIONAL COUNTER TERRORISM TASK FORCE

    Mr. Werts. Thank you, Mr. Chairman, and welcome to 
Pennsylvania.
    Mr. Cuellar. Thank you.
    Mr. Werts. As you can see at--
    Mr. Cuellar. By the way, I have a brother, you were 35 
years in the State Police?
    Mr. Werts. That's correct, sir.
    Mr. Cuellar. Edwin had 30 years in the State Police. He 
just retired.
    Mr. Werts. He is just a rookie.
    Mr. Cuellar. He is my younger brother. Appreciate that.
    Mr. Werts. As you can see, I have spent almost my entire 
adult life in service to my nation, my State, and my community. 
Most of that time the 35 years with the Pennsylvania State 
Police and, certainly, the last four years with the Northeast 
Regional Counter Terrorism Force, I have been dealing with 
public safety and preparedness. The Task Force has accomplished 
much over the last four to five years. Actually, a great deal 
more than I can possibly tell you about in the allotted five 
minutes. So, please, refer to the written statement I have 
provided for more detail. In addition, I will be happy to 
answer any questions that you may have.
    What I would like to do now is to give you an understanding 
of how the Task Force is organized, how it operates, some of 
our accomplishments, and some of the future goals. The Task 
Force area comprises eight counties in northeast Pennsylvania. 
Those counties are Carbon, Lackawanna, Lehigh, Monroe, 
Northampton, Pike, Susquehanna and Wayne County. The Executive 
Committee is made up of the eight Emergency Management Agency 
Directors for each county.
    The Task Force is further organized in a number of 
subcommittees representing such areas as hospitals, EMS, mental 
health, public health agencies, communications, volunteer 
organizations, such as The American Red Cross, the Salvation 
Army, and local churches. We have a school committee that is 
made up of the 46 public and two parochial school districts in 
the Task Force area, 1200 fire, rescue, and hazmat agencies, 
law enforcement, urban search and rescue teams, and we have a 
coroners committee. These committees meet on a monthly basis 
and discuss equipment, training, and other resources necessary 
to deal effectively in preventing, mitigating, responding to 
and recovering from a terrorist event or natural disaster.
    The following is only a partial list of some of the 
equipment that the Task Force has purchased for first 
responders: 2400 Millennium gas masks for every municipal 
police officer in the Task Force area, 1200 Positive Air 
Purifier Respirators and personal protection equipment for 
police and Emergency Medical Service agencies, 371 GPS systems 
for EMS unit in the area, four hostage negotiator phones for 
SWAT, four bomb robots, two bomb containment vessels, and three 
trucks to move that equipment tool. Two fully inflatable Surge 
hospitals with trailer, eight decontamination units, one for 
each county, and another 18 for each hospital and two command 
post vehicles.
    Just as important as the equipment is the training which we 
have provided to our first responders. Again, this is only a 
partial list of some of the training that the agency has taken 
part in. During 2006 and 1907 a series of six exercises were 
conducted to test the efficiency and effectiveness of fire, 
hazmat, EMS, law enforcement, coroners, and hospitals. During 
the course of the exercise, 3,401 individuals participated in 
responsive and recovery events. This represents 285 public 
safety, public health and hospitals, law enforcement, and 
governmental agencies. The National Tactical Officers 
Association regularly provides training for law enforcement 
officers in such areas as terrorism awareness, homicide 
bombers, crisis negotiation, and others. A separate two-day 
course of instruction for law enforcement, school personnel, 
and hospital personnel, in news media relations has also been 
offered. We feel it is vital that those persons responsible for 
informing the public during a crisis have the training and the 
ability to do so properly. NIMS training for municipal 
officials is on-going and, also, a program dealing with 
violence in schools, crisis management, and NIMS training has 
been offered to and presented at a number of public schools.
    The planning area; the Task Force has begun planning on a 
number of possible scenarios that would have a detrimental 
affect to our area. First is evacuation. While it is necessary 
to plan on evacuating residents from this area, it is more 
likely that this region of Pennsylvania would be the location 
where evacuees from major cities such as New York and 
Philadelphia would attempt to flee to in the event of a man-
made or natural disaster. It is possible that within one hour 
of a disaster in New York the Pocono Mountains would begin to 
see a huge increase in traffic. It should be noted that nearly 
one-third of the population of Monroe County alone now commutes 
to New York City. This along with other evacuees could cause 
gridlock on our interstates, much the same as was seen in Texas 
during Hurricane Katrina. Issues such as interstate highway 
ramps closures the utilization of tanker trucks to fuel 
vehicles, staging areas for evacuees to report to prior to 
their assignments to a specific shelter are just a sampling of 
subjects presently being discussed in order to formulate an 
effective plan.
    The strategic national stockpile; in the event of a 
terrorist group attacking with weapons of mass destruction such 
as chemical, biological, radiological, nuclear, or explosive 
devices, or a major natural disaster, the affected counties 
within the Task Force area would rapidly deplete the local 
cached pharmaceuticals and medical equipment. If this occurs it 
is essential that a re-supply of large quantities of essential 
medical material be deployed within 12 hours. The Task Force is 
presently involved in the planning of Points of Distribution or 
PODs. Locations have been determined and we are presently 
conducting meetings to identify the persons responsible to 
ensure the distribution of these medicines is completed within 
the timeframe set by the Federal Government, the Center for 
Disease Control, and the Department of Health and Human 
Services.
    Pandemic influenza; the same responsibilities as mentioned 
in the previous paragraph will also have to be met with respect 
to the vaccination of large numbers of people during a 
pandemic. However, along with the responsibility of ensuring 
the proper distribution system is in place the Task Force has 
the added issue that the only facility in the world that 
manufactures this vaccine is located in our area. In addition 
to the foregoing preparation the Task Force has also been 
involved with the manufacturing company, the Department of--the 
U.S. Department of Homeland Security, State and municipal law 
enforcement agencies, and others in developing a buffer 
protection plan and other security measures regarding the 
transportation, storage, and dispensing of this vaccine.
    It should be noted that the Task Force has brought together 
members of the law enforcement committee, the school committee, 
hospital committee, along with local public health officials, 
doctors, nurses, and pharmacists to develop a comprehensive 
plan to effectively manage the dispensing of medications to a 
large number of people if either of the above events occur.
    Multi-Agency Command Center; the Pocono International 
Raceway located in Long Pond, Pennsylvania is the site of two 
NASCAR events during the year. These races, the Pocono 500 and 
the Pennsylvania 500, each attract in excess of 160,000 people. 
Due to the potential of a terrorist incident or a natural 
disaster at the raceway, and at the request of the owner of the 
track, the Monroe County Office of Emergency Services and the 
Task Force has assisted the track with developing an emergency 
plan. As part of that plan the MACC concept is utilized. This 
concept brings together a number of Federal, State, county and 
municipal agencies. There are three objectives to the MACC, 
first to ensure the safety of the fans, spectators, drivers, 
and all attendees at these events. Secondly to provide a 
capability of central unified command and control as specified 
in NIMS. And, finally, to provide a central location for 
coordination of Federal, State, local, non-governmental, and 
private sector organizations with primary responsibility for 
threat response and incident support. Numerous agencies are 
represented in the MACC and please refer to my written report.
    It should be noted that since the participation of the Task 
Force and the utilization of the MACC concept that NASCAR now 
considers the Pocono International Raceway one of its most 
secure sites.
    I realize that the goal of this committee is to determine 
whether or not we are prepared for a natural disaster or 
terrorist attack. The answer to that question is not a simple 
yes or no. The truth is as long as we have bad weather, 
earthquakes, flooding, snowstorms, and the like, and as long as 
there are persons or groups who hate America and Americans and 
everything we stand for, preparing will never end.
    Six years ago tomorrow the nation found our how prepared we 
were to deal with these situations. It was further emphasized 
during Hurricane Katrina and the devastation and death that 
occurred in the Gulf States. Lessons were learned the hard way. 
Have we made progress? Yes, by leaps and bounds. Is there more 
to do? Definitely yes. The Task Force is equipped and trained 
agencies to respond to disasters whether man-made or natural. 
In most instances the cost to train and quip these first 
responders would have been impossible for these agencies to 
shoulder. The cooperation between Federal, State, and municipal 
agencies has improved dramatically. Planning to deal with these 
crises has been on-going and will continue.
    I know that all of this takes a tremendous amount of money 
and that there is a limit to funding. I would advise caution 
when determining the amount of funding that is designated to 
specific areas through the Department of Homeland Security.
    While I agree that major cities throughout the nation are 
more likely to be targeted by terrorists, they are not more 
likely to be the casualty of a natural disaster. In addition, 
we have learned here in Pennsylvania rural areas, because of 
their remoteness and the ability of terrorists to conceal their 
plotting, are more likely to be chosen to complete their 
planning.
    Bombs or other weapons of mass destruction that 
accidentally detonate prior to their final delivery point 
become the problem of that particular municipality. 
Consequently, rural areas are required to do as much planning 
to prevent, mitigate, respond to and recover from an attack as 
urban areas and major cities.
    In addition, I am referring now to northeast Pennsylvania, 
once a terrorist attack or a natural disaster occurs, residents 
of New York, New Jersey and Philadelphia would most likely 
evacuate to rural areas of the Commonwealth, in this case, the 
Pocono Mountains. These evacuees would need food and sheltering 
for an undetermined amount of time. While emergency services in 
these cities would be dealing with the aftermath of the attack 
it will be the rural areas that will be required to deal with 
the human suffering. Sheltering centers, hospitals and other 
medical facilities would be overrun. Law enforcement agencies 
that normally deal with thousands of people would now be 
dealing with hundreds of thousands if not millions.
    Through funding from the Department of Homeland Security 
our region is more secure and our communities are safer than 
ever before. For that to continue and improve the programs and 
funding must continue. There is much more work that needs to be 
done and it will require additional supplies and training. The 
first responders in this region are dedicated and hard working, 
and many of them are volunteers. Our goal needs to be to 
protect our region and the people who live here, as well as 
make sure all emergency personnel have the tools they need when 
disaster strikes.
    Once again I would like to express my sincere appreciation 
for this committee for giving me the opportunity to discuss the 
Northeast Pennsylvania Regional Counter Terrorism Task Force, 
our work, our accomplishments and our needs. And if there are 
any questions I will be happy to respond. Thank you, sir.
    [The prepared statement of Robert G. Werts follows:]

                 Prepared Statement of Robert G. Werts

    Good morning ladies and gentlemen. I would like to thank you for 
the opportunity to speak here today. I believe it is important that you 
have at least some knowledge of the individual who sits before you and 
offers testimony on such a vital issue as Homeland Security.
    I have spent my entire adult life in service to my nation, my state 
and my community. I served 5 years as a Navy Corpsman with the Second 
Marine Division, which was followed by nearly 35 years as a member of 
the Pennsylvania State Police, where I rose from Trooper to the rank of 
Lt. Col. and served as the Deputy Commissioner of Operations. I am 
presently employed as the Program Manager for the Northeast 
Pennsylvania Regional Counter Terrorism Task Force (NEPRCTTF).
    The NEPRCTTF area comprises eight (8) counties in northeast 
Pennsylvania. Those counties are Carbon, Lackawanna, Lehigh, Monroe, 
Northampton, Pike, Susquehanna and Wayne. The Task Force was formed 
under an Inter Governmental Agreement signed by the governing bodies of 
each of the counties. Authority is derived from Title 35 and Act 227. 
The Task Force Executive Committee is comprised of the eight Emergency 
Management Agency Directors in each county.
    The Task Force is further organized in a number of sub-committees. 
Those committees are:
        Hospitals--which represent the 18 hospitals in the task force 
        area; the EMS work Group; Mental Health agencies and the Public 
        Health work group which includes The Pennsylvania Department of 
        Health and the Municipal Health Bureaus
        Communications--The 911 Directors of each county along with the 
        Communications Utility Group make up this sub-committee.
        Support Services Committee--is comprised of Volunteer 
        Organizations, such as The American Red Cross, the Salvation 
        Army and various churches in the area.
        School Committee--this is made up of the 46 public and 2 
        parochial school districts.
        Fire/Rescue/Hazmat Committee--over 1200 fire, rescue and hazmat 
        agencies are represented by this committee.
        Law Enforcement Committee--comprised of members of Federal Law 
        Enforcement Agencies, the Pennsylvania State Police and nearly 
        150 municipal law enforcement agencies, corrections officials, 
        sheriffs departments, bomb squads and Special Weapons and 
        Tactics (SWAT) Teams.
        The Urban Search and Rescue--a complete company trained and 
        equipped that exactly mirrors the FEMA Team and consists of 33 
        members is available to respond within the Commonwealth when 
        needed.
        Coroners--comprised by the eight county coroners.
    The committees meet on a monthly basis for the purpose of 
discussing equipment, training and other resources necessary to deal 
effectively in preventing, mitigating, responding to or recovering from 
a terrorist event or natural disaster.

EQUIPMENT
    It is vital that our first responders are properly equipped and 
trained. If I may I would like to provide this committee with a partial 
list of some of the equipment that the Task Force has provided to first 
responders.
        2400 Millennium Chemical, Biological, Radiological, Nuclear 
        (CBRN) Gas Mask Kits for every police officer in the Task Force 
        area.
        1200 Positive Air Purifier Respirators (PAPR) with Personal 
        Protection Equipment (PPE) for police and EMS agencies.
        9 Hostage Negotiator Phone Sets for the area Police SWAT Teams.
        4 Bomb Robots, 2 Bomb Containment vessels and 3 trucks to move 
        this equipment.
        2 fully equipped inflatable ``Surge'' hospitals, with trailers.
        8 complete Decontamination Units, one for each county. 32 Fire 
        Companies are in the process of being trained to use this 
        equipment. In addition decontamination units have been 
        purchased for all 18 hospitals in the area.
        The equipment necessary to stand up one complete USAR Team.
        2 Command Post buses.
    Equipment necessary for the eight (8) county coroners to deal with 
an incident involving mass casualties.
        371 GPS systems for each EMS Unit in the area.

TRAINING
    This is, as I mentioned, only a partial list of equipment that the 
Task Force has provided to first responders. Just as important as the 
equipment is the training which we provide to these agencies.
    We recently concluded a series of six ``Exercises'' to test the 
efficiency and effectiveness of fire, hazmat, EMS, Law Enforcement, 
Coroners and Hospitals. The Task Force retained Cocciardi and 
Associates, Inc. to develop, present and evaluate a series of county 
based full scale counter-terrorism exercises during 2006-07. A 
validated Weapons of Mass Destruction (WMD) terrorism scenario was 
developed through the use of a mock terrorist group. This scenario was 
then applied to each NEPRCTTF county. During the course of the 
exercises, 3,401 individuals participated in response and recovery 
events, representing 285 public safety, public health and hospitals, 
law enforcement and governmental agencies. Two-hundred seventy-five 
(275) critical tasks were reviewed and evaluated representing more than 
1,600 required actions during the series of exercises. One hundred 
twenty-five (125) improvement actions were recommended and four (4) 
best practices were noted.
    In addition to the foregoing the National Tactical Officers 
Association regularly provides training in such areas as:
        Terrorism Tactics--Homicide Bombers
        Terrorism Intelligence Profiles
        Protective Operations--Dignitary Protection
        Basic SWAT Training
        Basic Crisis Negotiations
        Hostage Rescue Training
        Tactical Emergency Medical Support
        Critical Incident Management
        High Risk Transport--Corrections
        Advanced Crisis Negotiations
        Workplace Violence--Response
    All 18 hospitals have upgraded their required personnel to Hazmat 
Technician level through the U.S. Environmental Protection Agency (EPA) 
training.
    A separate two day course of instruction for Law Enforcement, 
School Personnel and Hospital Personnel in News Media Relations has 
been offered to insure those persons having the responsibility of 
informing the public, during a crisis, have the training and ability to 
do so properly.
    Training in the National Incident Management System (NIMS) has been 
attended by municipal/public officials.
    A program dealing with Violence in Schools in conjunction with 
Crisis Management and NIMS training has been offered to and presented 
at a number of the public schools in the task force area.

PLANNING
    The Task Force has begun planning on a number of possible scenarios 
that would have a detrimental affect on the area.
    Evacuation--while it is necessary to plan on evacuating residents 
from this area, it is more likely that this region of Pennsylvania 
would be the location where evacuees from the major cities, New York 
and Philadelphia, would attempt to flee to in the event of man-made or 
natural disaster. It is possible that within one hour of a disaster in 
New York, the Pocono Mountains would begin to see a huge increase in 
traffic. It should be noted that nearly one-third of the population of 
Monroe County now commutes to New York City. This along with other 
evacuees could cause ``grid-lock'' on our Interstates, much the same as 
was seen in Texas during Hurricane Katrina. Issues such as Interstate 
Highway ramp closures, the utilization of tanker trucks to fuel 
vehicles and staging areas for evacuees to report to prior to their 
assignment to a specific shelter are just a sampling of subjects 
presently being discussed in order to formulate an effect plan.
    Strategic National Stockpile--in the event of a terrorist group 
attacking with weapons of mass destruction, such as chemical, 
biological, radiological, nuclear, or explosive devices, or a major 
natural disaster, the affected counties within the task force area will 
rapidly deplete the local cached pharmaceuticals and medical equipment. 
If this occurs it is essential that a re-supply of large quantities of 
essential medical material be deployed within twelve hours. In counties 
that have no Department of Health it falls to the Director of Emergency 
Services or the EMA Director to have in place a plan for the 
distribution of these medical materials. The task force is presently 
involved in the planning of Points of Distribution (PODs). Locations 
have been determined and we are presently conducting meetings to 
identify the persons responsible to insure the distribution of these 
medicines is completed within the time frame set by the Federal 
Government, the Center for Disease Control and the U.S. Department of 
Health and Human Services.
    Pandemic Influenza--the same responsibilities as mentioned in the 
previous paragraph will also have to be met with respect to the 
vaccination of large numbers of people during a pandemic. However along 
with the responsibility of insuring the proper distribution system is 
in place, the NEPRCTTF has the added issue that the only facility in 
the world that manufactures this vaccine is located within our area. In 
addition to the foregoing preparations, the task force has also been 
involved with the manufacturing company, the Department of Homeland 
Security, state and municipal law enforcement and others in developing 
a buffer protection plan and other security measures regarding the 
transportation, storage and dispensing of this vaccine.
        *Note: It should be noted that the Task Force has brought 
        together members of Law Enforcement Committee, the School 
        Committee, the Hospital Committee along with local public 
        health officials, doctors, nurses and pharmacists to develop a 
        comprehensive plan to effectively manage the dispensing of 
        medications to a large number of people if either of the above 
        events occurs.
    Multi-Agency Command Center (MACC)--The Pocono International 
Raceway (PIR), located in Long Pond, PA is the site of two NASCAR 
events during the year. These races, the Pocono 500 and the 
Pennsylvania 500, each attract in excess of one hundred and sixty 
thousand people (160,000). Due to the potential of a terrorist incident 
or a natural disaster at the raceway, and at the request of the owner 
of PIR, the Monroe County Office of Emergency Services (OES) and the 
NEPRCTTF has assisted the PIR with developing an Emergency Plan. As 
part of that plan the MACC concept is utilized. This concept brings 
together a number of federal, state, county and municipal agencies. 
There are three objectives of the MACC. They are: To insure the safety 
of the fans, spectators, drivers and all attendees at these events; To 
provide capability for Central Unified Command and Control as specified 
in NIMS and; To provide a central location for coordination of federal, 
state, local, non-governmental and private sector organizations with 
primary responsibility for threat response and incident support. The 
following is a list of the agencies represented at the MACC.
        Federal: Federal Bureau of Investigation, Alcohol, Tobacco and 
        Firearms, Environmental Protection Agency, Federal Aviation 
        Agency, Department of Homeland Security, Civil Support Team, 
        the FBI's Law Enforcement On-Line (LEO).
        State: Pennsylvania State Police, Pennsylvania Emergency 
        Management Agency, Pennsylvania Department of Transportation, 
        Pennsylvania Department of Environmental Protection, Office of 
        Homeland Security, Easter Pennsylvania Regional EMS Council.
        County: Monroe County Office of Emergency Services, Monroe 
        County 911 Center, Monroe County Planning Commission, Carbon 
        County Office of Emergency Services, Urban Search and Rescue-PA 
        Company Three.
        Municipal: Pocono Mountain Regional Police Department, 
        Tunkhannock Volunteer Fire Department, Tunkhannock Township 
        Emergency Management Agency.
    It should be noted that since the participation of the NEPRCTTF and 
the utilization of the MACC concept that NASCAR now considers the 
Pocono International Raceway one of its most secure sites.
    We are also pleased to report the Communication Committee recently 
completed a project consisting of connecting the eight county 911 
centers together via secure microwave radio connectivity. By design 
they used a majority of existing infrastructure which was already in-
place and owned by the eight counties. In addition we partnered with 
the Eastern Pennsylvania Emergency Medical Services Council's 
``Medcom'' system and the Pennsylvania Game Commission.
    Since we used the existing infrastructure this allowed us to expand 
the connection beyond our region and now we have direct and secure 
communications with: Berks and Schuylkill Counties as well as access to 
sixteen hospitals and seven aero-medical helicopter programs through 
Medcom.
    Furthermore there was a communications network created for the 
eight county emergency management officials so they too would have a 
secure communications link. The system is used on a daily basis for any 
and all situations which require interaction between counties and/or 
regions.
    It seems the main question that the members of this committee are 
most interested in hearing an answer to is, ``How prepared is 
Pennsylvania to Respond to a Terrorist Attack or Natural Disaster?''
    Six years ago tomorrow the nation found out how prepared we were to 
deal with these situations. It was further emphasized during hurricane 
Katrina and the devastation and death that occurred in the Gulf States. 
Lessons were learned, the hard way. Have we made progress? Yes, by 
leaps and bounds. Is there more to do? Definitely yes! The task force 
has equipped and trained agencies to respond to disasters, whether man 
made or natural. In most instances the cost to train and equip these 
first responders would have been impossible for these agencies to 
shoulder. The cooperation between federal, state and municipal agencies 
has improved dramatically. Planning to deal with these crises has been 
on-going and will continue.
    I realize that all of this takes a tremendous amount of money and 
that there is a limit to funding. I would advise caution when 
determining the amount of funding that is designated to specific areas 
through Department of Homeland Security.
    While I agree that major cities throughout the nation are more 
likely to be targeted by terrorists, they are not more likely to be the 
casualty of a natural disaster. In addition, as we have learned here in 
Pennsylvania, rural areas, because of their remoteness and the ability 
of terrorists to conceal their plotting, are more likely to be chosen 
to complete their planning.
    Bombs or other weapons of mass destruction that accidentally 
detonate prior to their final delivery point become the problem of that 
particular municipality. Consequently rural areas are required to do as 
much planning to prevent, mitigate, respond to and recover from such an 
attack as urban areas and major cities.
    In addition, and I am referring to Northeastern Pennsylvania at 
this point, once a terrorist attack or a natural disaster occurs, 
residents of New York, New Jersey and Philadelphia would most likely 
evacuate to the rural areas of the Commonwealth. In this case the 
Pocono Mountains.These evacuees would need food and sheltering for an 
undetermined amount of time. While emergency services in these cities 
would be dealing with the aftermath of the attack, it will be the rural 
areas that will be required to deal with the human suffering. 
Sheltering centers, hospitals and other medical facilities, would be 
overrun. Law Enforcement agencies that normally deal with thousands of 
people would now be dealing with hundreds of thousands if not millions.
    Through funding from the Department of Homeland Security our region 
is more secure and our communities are safer than ever before. For that 
to continue and improve, the programs and funding must continue. There 
is much more work that needs to be done, and it will require additional 
supplies and training. The first responders in this region are 
dedicated and hard working, and many of them are volunteers. Our goal 
needs to be: to protect our region and the people who live here as well 
as to make sure all emergency personnel have the tools they need when 
disaster strikes.
    Once again I would like to express my sincere appreciation to this 
committee for giving me the opportunity to discuss the Northeast 
Pennsylvania Regional Counter Terrorism Task Force, our work, our 
accomplishments and our needs.

    Mr. Cuellar. Thank you, Mr. Werts, for your testimony. At 
this time I now recognize Ms. Marrocolo to summarize her 
statement for five minutes.

 STATEMENT OF MARYANN E. MARROCOLO, DEPUTY MANAGING DIRECTOR, 
           EMERGENCY MANAGEMENT, CITY OF PHILADELPHIA

    Ms. Marrocolo. Thank you. Good morning, Mr. Chairman and 
Congressman Dent. I want to thank you for the opportunity to 
testify on the important subject of emergency preparedness in 
the Commonwealth of Pennsylvania.
    My name is MaryAnn Marrocolo and I am the Deputy Managing 
Director for Emergency Management in the City of Philadelphia. 
I have been in this position since November of 2006. Prior to 
that I was the Assistant Commissioner for Planning with the New 
York City Office of Emergency Management where I worked from 
1999 until 2006.
    Today I am going to discuss with you the importance of 
developing detailed operational plans to support emergency 
response, focusing specifically on evacuation. I will discuss 
with you why plans fails, offer you an approach to planning 
that can minimize these failures, and describe how this 
approach is being applied in the City of Philadelphia.
    First I want to focus on operational planning. I will now 
read to you several excerpts from after action reports that 
highlight some of the issues with planning for and coordinating 
a large-scale response operation. And I am only going to 
discuss two or three. There are several in my written 
testimony. Command and control were impaired at all levels of 
government. Another example would be a general lack of 
knowledge by key individuals and agencies concerning the 
incident management system, disaster response, and recovery 
planning and implementation, and emergency management functions 
in general led to coordination--led to confusion and 
frustration among responding agencies. There was a failure to 
heed past lessons learned from exercises and actual events. The 
response lacked the kind of integrated communication and 
unified command contemplated in the directive both within and 
among individual agencies. And finally, most senior management 
and elected officials interviewed were well distanced from, and 
in some cases ignorant of salient pieces of the plan. These are 
from after action reports dating as far back as Hurricane 
Andrew, and any of these items could have come from any of 
those reports.
    These examples of post-disaster hindsight bring to light 
three key issues with emergency planning. Number one, plans do 
not clearly define roles and responsibilities. Number two, key 
decision-makers and response personnel are often distanced from 
and, therefore, unaware of the plans they are expected to 
execute. And number three, plans fail to adequately communicate 
to the end user what is to be done.
    We must end the practice of learning the same lessons at 
every disaster, but how? The increasingly complex emergencies 
we face require plans that clearly articulate options, roles 
and tasks. First, plans must be simplified. Too often they are 
wordy and conceptual, failing to answer the basic who, what, 
when, where and how that is essential to organize and execute a 
response. Second, plans must be organized into strategies that 
link options and tasks. Third, plans must link roles to tasks 
beyond the boots on the ground response. This means that all 
roles, whether they are executives, emergency managers, 
personnel in the Emergency Operations Center, personnel 
operating at the scene, and personnel operating at agencies 
behind the scenes need to be clearly defined and connected 
together in the plan. Plans should not be written by a planner 
locked in an office for days on end. Plans must be developed 
through an inclusive and collaborative process that is highly 
organized and structured.
    Following Hurricane Katrina, Mayor John F. Street 
challenged leaders inside and outside of government to closely 
the ability of Philadelphia to respond to and recover from a 
catastrophic disaster. Following an exhaustive study the 
Mayor's Emergency Preparedness Review Committee released a 
report detailing over 200 recommendations to close identified 
gaps in preparedness. Today I have provided you a copy of the 
executive summary of that report and a full copy of the report 
on a CD in a packet that should be in front of you. This 
inclusive and important task and transparent look at the city's 
emergency preparedness should be commended and replicated. It 
is not often that those in power turn the microscope on 
themselves to not just tout what is done well but what needs 
improvement, and then follow-up with funding to implement the 
needed changes.
    I would now like to focus attention on the issue of 
evacuation planning. There are two types of evacuations, no-
notice and forecasted. No-notice evacuations are dynamic events 
where the hazard, safe areas, and protective actions are 
unknown until the time of the event. Forecasted evacuations are 
essentially the opposite.
    Regardless of the type of evacuation, people in danger and 
some who are not but perceive they are will evacuate on foot, 
by car, or by bus, subway, or rail if it is available to them. 
Depending on the type of incident some modes of transit may not 
be available which will shift demand. For example, in New York 
City one of the things that we often saw is that when the 
subway became unavailable people would shift their transit to 
the ferry system. So plans must be able to accommodate for the 
shift in demand.
    Thus evacuation plans must address all hazards, be flexible 
and scalable to the event. Further, these plans must be 
coordinated and connected across agencies to provide the 
greatest flexibility should one or more modes of transit become 
unavailable. Finally, evacuation plans must be regional in 
nature as evacuees often do not stop at the invisible political 
boundary.
    In April 2007 the Philadelphia Office of Emergency 
Management launched a project to develop a Citywide Evacuation 
Plan, the foundation of which is identifying evacuations 
routes. To ensure the routes were operationally sound and 
addressed the needs of those that would use them as well as 
those that would have to manage them, a work group was formed 
that included representatives from the public safety and 
transportation agencies, as well as community members and the 
private sector.
    Through this work group we have successfully identified 
evacuation zones and routes for emergency vehicles, 
pedestrians, and mass transit vehicles, and private vehicles. 
In conjunction with this we have undertaken two projects to 
develop tactical evacuation plans, one for our Sports Complex 
Special Services District and one to coordinate high-rise 
building evacuation. Both of these projects were done in the 
same manner as identifying the routes, by bringing together the 
right people and utilizing a structured process to achieve a 
result. Currently, we have arranged the first meeting with our 
partners in New Jersey to broaden the scope of our routing 
efforts.
    Within southeastern Pennsylvania, Philadelphia is part of 
the Southeastern Regional Counter Terrorism Task Force. This 
Task Force is also working to coordinate evacuation plans 
across jurisdictions in the State of Pennsylvania, New Jersey 
and Delaware.
    In conclusion, developing sound operational plans is 
essential to an organized and coordinated emergency response. 
The planning process I described above produces documents that 
clearly articulate options, roles and tasks, and resonate with 
the personnel charged with implementing them. Coupled with this 
is the buy-in necessary for the plan to work. This process is 
being actively employed by the City of Philadelphia in the 
development of the Citywide Evacuation Plan as well as many 
other plans.
    Once again, thank you for the opportunity to testify. I am 
happy to answer any questions that you may have.
    [The prepared statement of MaryAnn E. Marrocolo follows:]

               Prepared Statement of MaryAnn E. Marrocolo

Opening
    Good morning Mr. Chairman and members of the Subcommittee. I want 
to thank you for the opportunity to testify on the important subject of 
emergency preparedness in the Commonwealth of Pennsylvania.
    My name is MaryAnn Marrocolo and I am the Deputy Managing Director 
for Emergency Management in the City of Philadelphia. I have been in 
this position since November 2006. Prior to that, I was the Assistant 
Commissioner for Planning with the New York City Office of Emergency 
Management where I worked from 1999 until 2006.
    Today I am going to discuss with you the importance of developing 
detailed operational plans to support emergency response, focusing 
specifically on evacuation. I will discuss with you why plans fail, 
offer you an approach to planning that can minimize these failures, and 
describe how this approach is being applied to evacuation planning in 
Philadelphia.

Part 1_Operational Planning
    I will now read to you excerpts from several after action reports 
that highlight some of the issues with planning for and coordinating a 
large-scale response operation:
        <bullet> There was a failure to have a single person in charge 
        with a clear chain of command
        <bullet> Command and Control was impaired at all levels of 
        government
        <bullet> There was an inability to cut through bureaucratic red 
        tape
        <bullet> A general lack of knowledge by key individuals and 
        agencies, concerning the Integrated Emergency Management 
        System, disaster response/recovery planning and implementation, 
        and emergency management functions in general, led to confusion 
        and frustration among responding agencies
        <bullet> Leaders were not well versed in protocol and therefore 
        failed to successfully implement the National Response Plan, 
        and with it, the National Incident Management System
        <bullet> There was a failure to heed past lessons learned from 
        exercises and actual events
        <bullet> The response operation lacked the kind of integrated 
        communications and unified command contemplated in the 
        directive, both within and among individual responding agencies
        <bullet> Information that was crucial to informed decision-
        making was not shared among agencies
        <bullet> Most senior management and elected officials 
        interviewed were well distanced from, and in some cases 
        ignorant of, salient pieces of the plans
    These examples of post-disaster hindsight bring to light three key 
issues with emergency planning:
        1. Plans do not clearly define roles and responsibilities
        2. Key decision-makers and response personnel are too distanced 
        from and therefore unaware of the plans they are expected to 
        execute
        3. Plans fail to adequately communicate to the ``end user'' 
        what is to be done
    We must end the practice of learning the same lessons at every 
disaster, but how?
    The increasingly complex emergencies we face require plans that 
clearly articulate options, roles and tasks.
    First, plans must be simplified. Too often, they are wordy and 
conceptual; failing to answer the basic who, what, when, where, and how 
that is essential to organize and execute a response.
    Second, plans must be organized into strategies that link options 
and tasks.
    Third, plans must link roles to tasks--beyond the ``boots on the 
ground response.'' This means that all roles, whether they are 
executives, emergency managers, personnel in the Emergency Operations 
Center, personnel operating at the scene, and personnel operating at 
agencies behind the scenes need to be clearly defined and connected 
together in the plan.
    Plans should not be written by a planner locked in an office for 
days on end. Plans must be developed through an inclusive and 
collaborative process that is highly organized and structured.

Part 2_Evacuation Planning
    I would now like to focus attention on the issue of evacuation 
planning. There are two types of evacuations: no-notice and forecasted. 
No-notice evacuations are dynamic events where the hazard, safe areas, 
and protective actions are unknown until the time of the event. 
Forecasted evacuations are essentially the opposite.
    Regardless of the type of evacuation, people in danger (and some 
who are not, but perceive they are) will evacuate on foot, by car, or 
by bus, subway, or rail. Depending on the type of incident, some modes 
of transit may not be available, which will shift demand.
    Thus, evacuation plans must address all hazards, be flexible, and 
be scalable to the event. Further, these plans must be coordinated and 
connected across agencies to provide the greatest flexibility should 
one or more modes of transit become unavailable. Finally, evacuation 
plans must be regional in nature as evacuees often do not stop at the 
invisible political boundary.
    In April 2007 the Philadelphia Office of Emergency Management 
launched a project to develop a Citywide Evacuation Plan, the 
foundation of which is identifying evacuation routes. To ensure the 
routes were operationally sound and addressed the needs of those that 
would use them as well as those that would have to manage them, a Work 
Group was formed that included representatives from public safety and 
transportation agencies as well as community members and the private 
sector.
    Through the Work Group, we have systematically identified 
evacuation zones and routes for emergency vehicles, pedestrians and 
mass transit, and private vehicles.
    In conjunction with this, we have undertaken two projects to 
develop tactical evacuation plans: one for the Sports Complex Special 
Services District and one to coordinate high-rise building evacuation. 
Both of these projects were done in the same manner as identifying the 
routes: by bringing together the right people and utilizing a 
structured process to achieve a result.
    Currently, we have arranged the first meeting with our partners in 
New Jersey to broaden the scope of our routing efforts.
    Within Southeastern Pennsylvania, Philadelphia is part of the 
Regional Counter-terrorism Task Force. The Task Force is also working 
to coordinate evacuation plans across multiple jurisdictions in the 
state of Pennsylvania, New Jersey, and Delaware.

Summary
    In conclusion, developing sound operational plans is essential to 
an organized and coordinated emergency response. The planning process I 
described above produces documents that clearly articulate options, 
roles, and tasks and resonate with the personnel charged with 
implementing them. Coupled with this, is the buy-in that is necessary 
for the plan to work.
    This process is being actively employed by the City of Philadelphia 
in development of the Citywide Evacuation Plan, the first step being 
identifying evacuation zones and routes.
    Once again thank you for the opportunity to testify, I am happy to 
answer any questions you may have.

    Mr. Cuellar. Thank you very much, Ms. Marrocolo. At this 
time I would like to recognize Mr. Paul to summarize his 
statement for five minutes.

    STATEMENT OF R. CHADWICK PAUL, JR., PRESIDENT AND CHIEF 
    EXECUTIVE OFFICER, BEN FRANKLIN TECHNOLOGY PARTNERS OF 
                   NORTHEASTERN PENNSYLVANIA

    Mr. Paul. Thank you, Mr. Chairman, and good morning. And 
good morning, Charlie. My name is Chad Paul and I am President 
and Chief Executive Officer of the Ben Franklin Technology 
Partners of Northeastern Pennsylvania. I appreciate your 
inviting me to testify today. I appreciate the opportunity to 
share our efforts regarding business preparedness as it relates 
to the financial services arena.
    In the wake of the September 11 attacks, the Securities and 
Exchange Commission and the Federal Reserve recommended that 
financial services firms develop more reliable backup 
operations outside the New York City power grid, watershed and 
geographic proximity. Far enough from New York City to meet the 
SEC recommendations, yet close enough for the industry required 
synchronous data transfer. The northeast Pennsylvania region is 
uniquely situated to provide a complete backup of the New York 
financial markets in the event of another disaster.
    Governor Rendell submitted a Wall Street West proposal for 
northeast Pennsylvania in 2006 to the U.S. Department of Labor 
and the Workforce Investment for Regional Economic Development 
or WIRED grant was awarded by the U.S. Department of Labor to 
Ben Franklin Technology Partners in January of 1906. Wall 
Street West has become a $40 million initiative and is managed 
by Ben Franklin Technology Partners of Northeast Pennsylvania. 
It involves a variety of Federal, State and private funding 
sources. Nearly 15 million in state funds are leveraging up to 
25 million in Federal and private investments.
    The Workforce Development piece will help northeastern 
Pennsylvania create the talent pool of workers for skills that 
will be needed by the financial services industry as they move 
facilities to Pennsylvania. The four-year Federal WIRED grant 
includes nine counties and provides workforce development 
initiatives to support both business attraction as well as 
training. The Wall Street West project will develop career 
ladders and incumbent worker training to help those workers 
advance.
    Synchronous data transfer between the primary and backup 
sites is requisite for many financial services companies. 
Another part of Wall Street West, the construction and the 
deployment of high-speed fiber optic connectivity from lower 
Manhattan to northeast Pennsylvania, will provide the necessary 
infrastructure for the region's well-trained workforce. In June 
2007 Governor Rendell along with Wall Street West, announced an 
agreement with Level 3 Communications to build this fiber optic 
network.
    We are creating a fiber network that will meet the 
requirements of one of the most demanding information 
technology environments in the world; the safe and secure 
transmittal of America's financial transactions, all at 
incredible speed.
    While providing better connectivity with New York and 
northeast Pennsylvania we will also interconnect with an 
already robust fiber optic infrastructure that covers all nine 
counties included in the Wall Street West initiative, including 
Carbon, Berks, Lackawanna, Lehigh, Luzerne, Monroe, 
Northampton, Pike and Wayne Counties.
    Ben Franklin and its partners have leveraged Federal and 
State grants to fund the Wall Street West fiber optic 
infrastructure. The funding sources included $1,000,000 from 
the U.S. Department of Commerce Economic Development 
Administration with a check that was presented by Charlie and 
Assistant Secretary Sandy Baruah from Economic Development 
Administration, as well as grants from various State funding 
sources like the Ben Franklin Technology Development Authority, 
the Pennsylvania Department of Community and Economic 
Development, and the Pennsylvania Department of Labor and 
Industry.
    One example of an early success is SECCAS LLC, which is the 
leading provider of compliance solutions for financial firms in 
New York, relocated its backup and disaster recovery facilities 
to Scranton in April 2007, and they are expected to create at 
least 10 well-paying jobs in Lackawanna County.
    When not managing Wall Street West I run Ben Franklin 
Technology Partners of Northeast Pennsylvania. We link 
companies with universities, funding, and other resources to 
help them prosper in today's technology-based economic 
innovation society. We were created by the Commonwealth in 1983 
to play a leadership role in strengthening regional economies, 
building the State's technology economy, and creating and 
retaining high-wage, high-skilled jobs. I am pleased to say we 
worked closely with Congressman Dent when in his role in the 
State House and in the State Senate when he served there.
    Since 1983, Ben Franklin has started over 360 companies, 
developed almost 700 products and services, created almost 
12,000 new jobs, and retained almost 20,000 new jobs.
    It has been my pleasure to have the opportunity to testify 
for you and I welcome the committee's questions.
    [The prepared statement of R. Chadwick Paul, Jr., follows:]

              Prepared Statement of R. Chadwick Paul, Jr.

    Good morning, Mr. Chairman and members of the Subcommittee. My name 
is Chad Paul and I am President and Chief Executive Officer of Ben 
Franklin Technology Partners of Northeastern Pennsylvania. Thank you 
for inviting me to testify today. I appreciate the opportunity to share 
our efforts regarding business preparedness as it relates to the 
financial services arena.

WALL STREET WEST
Overview
    In the wake of the September 11th attacks, the Securities and 
Exchange Commission and the Federal Reserve recommended that financial 
services firms develop reliable backup operations outside the New York 
City power grid, watershed and geographic proximity. Far enough from 
New York City to meet SEC recommendations, yet close enough for 
synchronous data transfer, the Northeastern PA region is uniquely 
situated to provide a complete backup of the New York financial markets 
in the event of another disaster.
    Governor Ed Rendell submitted a ``Wall Street West'' proposal for 
northeastern Pennsylvania in 2006, and the Workforce Investment for 
Regional Economic Development (WIRED) grant was awarded by the U.S. 
Department of Labor Education and Training Administration to the Ben 
Franklin Technology Partners of Northeastern Pennsylvania. Wall Street 
West is a $40 million initiative, managed by the Ben Franklin 
Technology Partners of Northeastern Pennsylvania, involving a variety 
of federal, state and private-funding sources. Nearly $15 million in 
state funds are leveraging up to $25 million in federal and private 
investments.

Workforce Development
    The WIRED grant will help northeastern Pennsylvania to create a 
talent pool of workers with skills for the financial services industry. 
The three-year federal WIRED grant involves nine counties and provides 
workforce development initiatives to support business attraction in the 
financial services sector, as well as other technology-based sectors. 
The Wall Street West project will develop career ladders and incumbent 
worker training to help workers advance.

Fiber Connectivity
    Synchronous data transfer between primary and backup sites is 
requisite for many financial services companies. Another part of Wall 
Street West, the construction and deployment of high-speed fiber optic 
connectivity from lower Manhattan to northeastern Pennsylvania, will 
provide the necessary infrastructure for the region's well-trained 
workforce. In June 2007, Gov. Rendell, along with Wall Street West, 
announced an agreement for Level 3 Communications (Nasdaq: LVLT) to 
build this fiber optic network.
        ``We analyzed and compared a number of proposals, and 
        negotiated with vendors to obtain the best possible price 
        without sacrificing the best-of-class performance and quality 
        that our financial services prospects will demand,'' said Chad 
        Paul, Ben Franklin President and CEO at the announcement event. 
        ``We are creating a fiber network that must meet the 
        requirements of one of the most demanding information 
        technology environments in the world: the safe and secure 
        transmittal of America's financial transactions, all at 
        incredible speed.''
    While providing better connectivity between New York and 
northeastern Pennsylvania, the Wall Street West fiber network will also 
interconnect with an already robust fiber-optic infrastructure that 
covers all nine counties covered by the Wall Street West initiative, 
including Carbon, Berks, Lackawanna, Lehigh, Luzerne, Monroe, 
Northampton, Pike and Wayne.
    ``Northeastern Pennsylvania is already home to a number of 
financial firms, and this initiative is essential to continuing the 
area's advancement and economic growth,'' said Gov. Rendell. ``It will 
also strengthen New York City's status as the financial capital of the 
world by providing firms there with mission-critical data back-up.''

Funding the Infrastructure Ben Franklin and its partners leveraged 
federal and state grants to fund the Wall Street West fiber optic 
infrastructure:
        --U.S. Economic Development Administration
                Engineering and Design Planning for Infrastructure
                $1,000,000 total awarded
                Sandy K. Baruah, Assistant Secretary of Commerce for 
                Economic Development, and U.S. Representative Charles 
                W. Dent presented two checks to the Ben Franklin 
                Technology Partners on May 29, 2007 for the Wall Street 
                West Fiber Network. Congressman Dent advocated for the 
                grant application for high-speed fiber optic 
                connectivity that was submitted by BFTP/NEP. This 
                connectivity will provide the necessary infrastructure 
                for synchronous data transmittal between New York City 
                and northeastern Pennsylvania. Ben Franklin is leading 
                the creation of this fiber network, and this grant is 
                the first federal grant funding of the fiber network.
        --Ben Franklin Technology Development Authority
                Infrastructure for Fiber Connectivity
                $3,000,000 total awarded for 2006--07 and 2007--08
        --Pennsylvania Department of Community and Economic Development 
        Community Conservation Program
                Fiber for Wall Street West
                $500,000 total awarded through June 2009
        --Pennsylvania Department of Community and Economic Development 
        World Trade PA
                Fiber for Wall Street West
                $3,000,000 total awarded through June 2010

Early Success: SECCAS
    SECCAS LLC, the leading provider of compliance solutions for 
financial firms, relocated to Scranton in April 2007, and is expected 
to create at least 10 well-paying jobs in Lackawanna County within 
three years. ``These jobs could have gone to New York, New Jersey or 
Maryland,'' Gov. Rendell said. ``This project is another great example 
of how our competitive business environment and strategic investments 
are working to grow our economy.''
    For more information about the Wall Street West initiative, visit 
www.wallstreetwest.org.

About the Ben Franklin Technology Partners of Northeastern Pennsylvania
    The Ben Franklin Technology Partners of Northeastern Pennsylvania 
(BFTP/NEP) links Pennsylvania companies with universities, funding, and 
other resources to help them prosper in today's knowledge-based economy 
through innovation. The Center is a non-profit corporation that is part 
of a four-center, state-funded economic development initiative. The Ben 
Franklin program was created by the Commonwealth in 1983 to play a 
leadership role in strengthening regional economies, building the 
state's technology economy, and creating and retaining high-wage, high-
skilled jobs.

    BFTP/NEP's strategy encompasses three key areas:
        1. Developing early-stage, technology-oriented companies;
        2. Helping established manufacturers creatively apply new 
        technology and business practices; and
        3. Promoting an innovative community-wide infrastructure that 
        fosters a favorable business environment for high-growth 
        companies.
    Since 1983, the Ben Franklin Technology Partners of Northeastern 
Pennsylvania has achieved the following results:
        <bullet> Started 366 new companies
        <bullet> Developed 698 new products and processes
        <bullet> Created 11,648 new jobs
        <bullet> Retained 19,622 existing jobs
    The northeastern center is headquartered on the campus of Lehigh 
University, Bethlehem, and at regional offices in Wilkes-Barre, 
Lewisburg, and Reading. Visit www.nep.benfranklin.org

    Mr. Cuellar. Thank you, Mr. Paul, for your testimony and I 
want to thank all the witnesses for their testimony. At this 
time what the panel will do is we will ask some questions. I 
will start off with some questions for each of the panel and 
then pass it on to the Ranking Member. So if you would allow me 
I will start off with Mr. Sarubbi. Can you, we understand now 
that the National Response Plan which is now being called the 
National Response Framework has been delayed and they have 
been--there has been some concern by some of the State and 
local emergency managers about the level of input. Could you 
answer two--one question with two parts, how is FEMA working to 
ensure that the State and local input has been included in the 
final draft, number one. And number two, what sort of direction 
are the State and local governments going to be given under 
this framework?
    Mr. Sarubbi. Certainly, Mr. Chairman, as you know since 
September of 2006 the National Response Plan has undergone a 
considerable revision. We have had over 700 people representing 
Federal, State and local governments, as well as the private 
sector and NGO's given an opportunity to comment on the plan 
and to be involved in the changes that are made to it.
    As we speak the plan is being rolled out for additional 
comment, for a 30-day comment period actually starting today. 
This plan as a result of the changes that it has undergone is 
now being called the National Response Framework. These changes 
are made to better align the document with its purpose to guide 
unification of national response efforts. Our Congressional 
Affairs folks will be happy to brief the committee on the 
changes that have taken place with the plan and our intended 
course of action for now. Essentially, the National Response 
Framework will be opened for public comment for 30 days, and 
Federal, State, local officials will be given opportunity to 
comment and provide feedback and that could result in 
additional changes to the document.
    Mr. Cuellar. Okay. But here in your area you have given the 
local folks the opportunity to get that input of reaching out. 
I mean we can open it up but we are reaching out to them to 
make sure they get actively involved.
    Mr. Sarubbi. Yes, sir, we will promote and advise people of 
this additional comment period and they will be given ample 
opportunity not only through the Federal Register but also 
efforts that we will make within the region to make sure that 
all of our folks who are in the region have that opportunity to 
comment on it.
    Mr. Cuellar. Okay. Thank you, sir. Mr. French, as you know 
the presence of high-risk, critical infrastructure in the State 
or open area is a major factor in determining risk-based 
funding allocations. Under the State Homeland Security Grants 
program and the Program Area Security Initiative, can you 
please describe the consultation process that your State 
undergoes with Homeland Security to identify the lists of those 
critical infrastructure?
    Mr. French. Yes, sir, Mr. Chairman. The Office of Homeland 
Security and our office Emergency Management Agency have worked 
together. We have a four-pillar approach in Pennsylvania which 
includes our Pennsylvania State Police, as well. But through 
the Office of Homeland Security we have identified over 200 
critical infrastructure pieces in the Commonwealth. And from 
that what we have done is worked through the investment 
justifications for the grants for this particular year, and we 
have made a change to the way we had previously issued grant 
monies, and that includes the critical infrastructure. This 
year we are taking a percentage of the overall grants applying 
it to critical infrastructure. Also, as you know, the UASCEs 
get their own specific slice of that particular grant program 
but we are trying to ensure that both per capita and critical 
infrastructure are primary considerations in our award of the 
grants. And that is an evolution that is going on here in 
Pennsylvania.
    Mr. Cuellar. Okay. Thank you. Mr. Werts, the communications 
between police and fire departments in northeastern 
Pennsylvania is very important as it is in any part of the 
country. Could you tell us what efforts are under way to 
improve the ability to communicate during an emergency and how 
those efforts are being funded?
    Mr. Werts. Yes, sir. First of all, we are dealing with the 
800 MHz system and trying to implement a great deal of that. In 
addition, in my written testimony I think there is an entire 
statement in there regarding some of the issues that our 
communication committee has looked at with respect to trying to 
implement cross communications between various agencies 
including hospitals, if you will. That has been met with a 
certain amount of success so far. It is something that is 
utilized on an ongoing basis. We have a system in place now 
where at least the EMA directors in each of the counties in the 
area and outside of the area actually in some cases, can 
communicate with another regarding emergency responses. So I 
think there is a lot of work that still has to be done 
regarding this. There are some bumps in the road, if you will, 
that have to be overcome but I think we are working towards a 
successful communication set-up.
    Mr. Cuellar. How much do you know of the $1 billion that 
Congress has set aside for this type of communications?
    Mr. Werts. None, but I will take as much as I can get.
    Mr. Cuellar. Charlie needs to do another check presentation 
it seems in the near future. All right. Ms. Marrocolo, could 
you tell us in your opinion what is the appropriate role of the 
Federal Government in encouraging or mandating the method by 
which State and local governments train and manage emergency 
response operations?
    Ms. Marrocolo. That is a very good question. I think that 
the Federal Government can provide guidance and provide, and 
assist in the development of consensus-based standards for 
things like developing plans, incident management and training, 
and those types of standards and guidance could then be applied 
to different jurisdictions based on the individual needs of 
that jurisdiction. I think a cookie-cutter approach to 
emergency planning or to emergency management or to training 
and exercises at the Federal level would probably produce an 
inefficient result, an ineffective result at the local level 
given the differences between just in the State of 
Pennsylvania, the resources I have available in the City of 
Philadelphia are far different than what you are going to see 
in some of the counties in the more rural parts of the State. 
And so to say that we should be held to the same standard or 
that the same standard should apply in the same way to every 
jurisdiction, I think, would be ineffective.
    Mr. Cuellar. Okay. All right. Last question and then I will 
pass it on to Mr. Dent. As you know, cooperation between the 
Department of Homeland Security and the private sector is 
necessary to maintain this healthy economy while enhancing our 
nation's homeland security efforts. This is one reason why 
Congress created the Private Sector Office of the Department. 
Have private sector representatives in the northeastern 
Pennsylvania participated in the training and exercise plan by 
the State or in the Department of Homeland Security and in what 
way?
    Mr. Paul. That would be an area that is outside of my 
expertise, Mr. Chairman. We have met as Wall Street West with 
Deputy Secretary at Homeland Security specifically to discuss 
the application of this project. But because our focus is sort 
of laser-focused, if you will, on this particular project I am 
unaware of those meetings.
    Mr. Cuellar. Okay. Let me at this time pass on the line of 
questioning to Mr. Dent and again, as you know, everything is 
being recorded and we want to get all the information. It is 
not only the testimony that you provide orally but also the 
written testimony that we will take, of course. The questions 
and the answers are important to use as we gather this type of 
information so we can take it back. So at this time I will pass 
on the line of questioning to Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman, and thanks to all of you 
for providing this excellent testimony. I wanted for you to 
think about a few things. First, I was pleased to hear all the 
comments about evacuation planning that have been ongoing in 
the event that some kind of catastrophic event, man-made or 
natural disaster would occur in the New York metropolitan area. 
And the one thing that I wanted to follow-up on in that vein 
was this, in the event of a biological attack in the New York 
metropolitan area, how would that affect evacuation planning? 
Obviously, if there is some kind of a blast, if it were some 
kind of a horrible detonation, people would want to get out of 
the blast zone and leave. But in the event of a biological 
attack involving some type of highly contagious pathogen like 
smallpox when maybe human movement is not the ideal thing in 
many States--if it happened in New York, New Jersey, or 
Pennsylvania some areas wouldn't want to receive people 
obviously who may be infected. So if you could maybe, you know, 
Bob Werts or General French might want to just talk about that 
issue. How would a biological attack impact us in the event of 
evacuation planning? How would this be different from other 
types of attack?
    Mr. Werts. Well, you know, we have kicked around the idea 
of quarantine and exactly how far law enforcement can go to 
quarantine individuals or prevent them from moving from one 
point to another. And that is certainly a subject that is up 
for debate and will be for quite some time. You know, is lethal 
force going to be utilized to enforce a quarantine? And I don't 
have the answer to that, Charlie, I really don't. I know that 
in talking about some of the things that New York City would 
evacuate their people from, in other words, the city turning 
around and saying okay, we need to evacuate. There are very few 
things that it is my understanding that they would actually do 
that. A tidal surge they would have to evacuate the city. And 
the problem is that most people, and as you know, the Poconos 
now has become the second Manhattan, if you will.
    Mr. Dent. You said a third of the, I guess, the commuters 
go--a third of the residents are working in New York City or is 
that the New York metropolitan area? I am just curious.
    Mr. Werts. The New York area.
    Mr. Dent. New York area.
    Mr. Werts. New York area.
    Mr. Dent. So they could be in New Jersey or Manhattan or--
--
    Mr. Werts. We have people who commute to like Newark and 
those areas also. But there is a huge influx of people that 
would be expected to come home, if you will. And, you know, if 
it gets to a situation where at least we have some type of 
notice that this is going to occur we can possibly deal with 
some of it, checking people at, you know, some of the, you 
know, one of the advantages we have is we have a river between 
New York or Pennsylvania and New Jersey. You could, in fact, 
set-up some sort of monitoring system at those cross points. 
This would be a tremendous task to try and achieve. I mean we 
would have traffic backed-up right into the city if we tried to 
do that because you would have people trying to leave the city, 
some coming home, some relatives who live in the city with 
their people that live here trying to get our area. It would be 
a huge task to try and perform.
    Mr. Dent. Yeah, and as a follow-up to that question, too, I 
guess, I just want to think about something here in terms of 
traffic patterns. How would you, you know, have you--how much 
thought have you given to that? Obviously, you might have to 
shut down the flow toward that area and utilize those 
highways--the eastbound highways would become westbound 
highways and probably, of course, on the 78 and 80 corridors, 
and probably on 95, as well. How much thought and planning has 
gone into that in coordination with our friends in New Jersey 
and New York?
    Mr. Werts. One of the things that in the meetings that we 
have had regarding evacuation we have invited members of the 
New Jersey State Police and the New York State Police to attend 
and they, in fact, have attended. One of the things you run 
into in this sort of mass evacuation is the fact that, and I 
think it has been touched on here, recently we--our Task Forces 
have gotten together to discuss evacuation because those people 
are going someplace. And if they are going someplace that 
someplace better know they are coming. Otherwise you are going 
to just have the problem someplace else, if you will. And we 
have discussed the fact that, you know, should we, in fact, 
close ramps of the interstate and keep people moving west. And 
to a certain extent there are some of those ramps that, yes, 
can be closed. We now run into the additional problem, if you 
will, that I have somebody that is coming home who wants to get 
off at that ramp.
    Mr. Dent. Right.
    Mr. Werts. I have people that, you know, are now running 
out of gas----
    Mr. Dent. Correct.
    Mr. Werts. --for their vehicles.
    Mr. Dent. Like Houston, you know.
    Mr. Werts. And that is--and these are the things that we 
have discussed. I want to make it very clear that we have 
discussed these things. We realize these issues are out there. 
Do we have the answers at this point? No, we don't.
    Mr. Dent. Okay. Well, thank you, I am just glad that you 
were all engaged in planning and preparing for this. And I know 
it is a massive undertaking, heaven forbid, we should ever have 
to actually effectuate such a plan, but it is just encouraging 
to see that so much attention has been given to it and that we 
will be as prepared as we possibly can be.
    Mr. French. And, Congressman, if I might.
    Mr. Dent. General French, I know I wanted your comment on 
that.
    Mr. French. Just as an additional thought on that not in 
the New York City scenario that you just described but we also 
have the capitol region from D.C. that those similar ongoing 
plans are currently underway because we anticipate that flow of 
traffic as well to come into the Commonwealth and so the 
infrastructure that is available the highway network is a 
situation we are aware of and we are continuing to develop 
plans for the national capitol region, as well, so two major 
metropolitan areas obviously potential to affect Pennsylvania.
    Mr. Dent. Thank you, I know that will put a lot of pressure 
on south central Pennsylvania sure.
    Mr. French. Yes, sir.
    Mr. Werts. Charlie, if I could just add one other thing. 
You know, this concept of these Task Forces I think is very 
important in this because, I think, with the breakdown of the 
regional application to these scenarios, if you will, is a lot 
easier to handle. In other words if we in the northeast get 
together with the southeast we can come up with some sort of 
planning. Rather than trying and look at this thing so broadly 
that you really can't get a hold on it, if you will. I mean I 
think obviously the State has got to be involved in this but I 
think the regional concept and the regional way we are handling 
a lot of this speaks well to making these things, getting them 
accomplished, if you will.
    Mr. Dent. I also would like to follow-up to--on the issue 
of biological attack and, Bob, you mentioned in your testimony 
too that the vaccine plant is obviously located within your 
jurisdiction up there----
    Mr. Werts. Yes.
    Mr. Dent. --the Sanofi Pasteur, and how much interaction 
have you had with them? Has their proximity to us helped us in 
our planning in terms of having the various countermeasures, 
whether it is smallpox or other things in terms of that?
    Mr. Werts. Well, I think one of the things that the fact 
that they are there I don't think it makes it any easier, if 
you will. We have the added responsibility, as I mentioned, of 
doing a buffer protection zone and dealing with the law 
enforcement agencies, et cetera, in protecting that. And it is 
not only that installation it is a number of other 
installations that are in the area that we won't talk about.
    Mr. Dent. Sure. Right.
    Mr. Werts. They have been very receptive to our suggestions 
in implementing some security procedures and we have tried to 
work them. We have had meetings almost on a weekly basis with 
the folks at Sanofi and that is ongoing.
    Mr. Dent. Encouraged to hear that. I just wanted to kind of 
shift over to the issue of interoperability and perhaps, 
General French, you might be able to just give us some insights 
as to how you feel Pennsylvania has done in terms of 
interoperable communications. I have been working with some of 
our local police who are here today and other first responders 
in terms of trying to, you know, secure funding for various 
programs here to help facilitate interoperable communications 
among law enforcement, as well as other first responders. And 
as you know, the Commonwealth is in the process of deploying 
the 800 MHz interoperable system throughout the Commonwealth, 
and simultaneously State officials are working with Sprint 
Nextel to re-band commercial networks operating on these same 
frequencies. Would you be able to provide us with a status 
update regarding these efforts and how the re-banding effort 
with Sprint Nextel is affecting the rollout of the Statewide 
system?
    Mr. French. Yes, sir. The 800 MHz system is continuing to 
evolve and in particular our void right now is mostly in the 
northern corridor in the center part of the State, the most 
rural region. But the 800 MHz system is continuing with 
additional cell towers, additional resources to be implemented 
throughout the Commonwealth. I know when we had the snow 
emergency back in February that one of the only means we had 
for us all to communicate across the Commonwealth was the 800 
MHz system. And I know personally from being up on I-80 that it 
was very successful and the means to communicate with. One of 
the other things we have done is try to ensure that the various 
kinds of communications equipment that exist today and the 
various organizations one are identified, and two utilized. And 
for example, I will take one that I am probably most familiar 
with and that is the Guard I-6 Kits. What happened in that 
particular case was, and we actually deployed one of our teams 
to Texas as well as to Mississippi, but what that suite of 
equipment allows you to do is merge into one system a common 
communicator so that if a local law enforcement official has a 
certain type of communication equipment and a county official 
has a different piece of equipment, this allows you to put them 
together and both can communicate then through that kind of a 
communication suite. So those are a couple of examples of the 
direction that we have been able to employ here in the State in 
times of emergency.
    Mr. Dent. I attended a briefing some time ago down in 
Montgomery County and this question should probably be directed 
more to Ms. Marrocolo, it seemed that in the southeast quadrant 
of the State, the five counties have been doing pretty well 
with respect to interoperability and at the time, I wish I 
could recall the exact statement, but it seemed that most 
municipalities have become interoperable within that five 
county area. There might be more challenges up in the 
northeast, given the number of counties and municipalities, and 
we have also mountainous issues here too, that I am sure affect 
the communications systems but I guess, that is what I am 
trying to understand. How interoperable are we in the 
southeast, maybe compared to our area up here in the northeast? 
Ms. Marrocolo, could you just talk about that a little bit?
    Ms. Marrocolo. Sure, I know that the Regional Counter 
Terrorism Task Force has invested an enormous amount of money 
in promoting interoperability in the five-county region, in 
fact, beyond the five-county region to an 11-county, three-
state area. Our most recent project is the installation of 
microwave communication towers that will connect the 11-county 
Greater Delaware Valley region, which is the five counties in 
southeastern Pennsylvania, the five counties in New Jersey and 
then New Castle County, Delaware, so that all of the public 
safety answering points in that five-county area will be able 
to communicate with each other through this microwave 
communications project that we are installing through Homeland 
Security grant funding. So I think that is one kind of macro-
level project on a more micro-level we work very closely to 
integrate our 800 MHz radio systems through the purchase of, I 
would like to, I guess the best way to be to put it is kind of 
band-aid solutions to a very complicated infrastructural 
problem. On scene tactical communications can be achieved 
across multiple radio systems or even phone systems by 
purchasing certain technology that you can then bring to a 
scene and integrate at the response. That is, you know, that is 
not ideal. That is a good stop-gap until you can solve these 
bigger, more complicated infrastructural problems which are 
extremely expensive.
    Mr. Dent. Bob or General French do, either of you want to 
add to that in terms of how we are doing in the rest of the 
State?
    Mr. French. I would just mention that we not only used some 
of these systems during the emergency crisis but it was just, 
we were just talking about it here even at the Pocono Raceway. 
The I-6 get the 800 MHz radios can be used to help in terms of 
non-emergency situations but critical to the needs of the local 
community as well, so a lot of application there.
    Mr. Dent. Okay. Now, finally I want to just turn to Chad 
Paul who is working on the Wall Street West initiative. And I 
would like to, I just want to ask you, how could this Wall 
Street West initiative serve as a model for preparedness for 
the private sector both in New York and the rest of the 
country? Could you envision some kind of a similar partnership 
like this, a public-private partnership, in industries other 
than financial services? And if so, could you think of any 
right now? I mean, I understand the financial services and why 
this all makes sense and we are outside the blast zone, beyond 
the watershed.
    Mr. Paul. Of course, our initial focus is the fact that 
America's financial industry was shut down for four-plus days.
    Mr. Dent. Right.
    Mr. Paul. Because of this event and we are looking to make 
sure the people in their planning process are thinking about 
what is the real impact of the backup in disaster recovery 
facilities that they are installing? So, I guess, the first 
lesson I would say that needs to be applied to more than just 
financial services is rather than thinking that you have solved 
the problem because you have a backup and disaster recovery 
plan or a location understanding the survivability of that 
backup and disaster plan. Immediately after 9/11 the financial 
services industry embarked upon the creation and construction 
at the cost of hundreds of millions if not billions of dollars 
of backup facilities that are all within the New York 
metropolitan area. They built them in Brooklyn, in the Bronx, 
on Long Island, in north Jersey, where they are served by the 
same watershed, the same power system, the same transportation 
system and all of them literally are within what the Federal 
Government euphemistically calls the blast zone----
    Mr. Dent. Right.
    Mr. Paul. --which is about a 60-mile radius of the city. So 
I guess the number one lesson is not getting comfortable with 
the fact that you got a location and a plan but that you 
understand the survivability of that location.
    Mr. Dent. Thank you. And I often think, too, that here we 
are seated at the--my father worked in this building for many 
years, actually with Bethlehem Steel, and there was a time when 
he always said in this country that the steel industry was 
critical to our nation's national defense. And today in this 
world, here we are in eastern Pennsylvania and we still have a 
very important industry sector that is critical to our nation's 
homeland defense. I would argue that, perhaps, the 
pharmaceutical industry is as critical to our homeland defense 
as any. And given our proximity to central New Jersey and to 
the Philadelphia region and all that goes on there and, of 
course, up in the Sanofi plant that we all know so well, the 
only vaccine manufacturer in the United States, you know, that 
industry is one that could be critical to us in terms of 
survivability in the event of something catastrophic. I don't 
have an answer today but I have been thinking about that in 
terms of a similar initiative to Wall Street West. For 
instance, what if, you know, that sector is impacted and, of 
course, in New Jersey and Pennsylvania it has a very 
significant presence. So with that I thought at this time that 
I would go back to the Chairman on the second round of 
questioning if he has additional questions.
    Mr. Cuellar. Yes, and I think one of the things as you know 
the standard format is there are a couple of Congressman here, 
we ask questions, that is usually the way Congress works. But I 
am going to ask you to just bear with me on this little 
exercise because I think it is important that you also have an 
opportunity to ask me some questions. We might not answer them 
but we will get you to ask some questions but I do see, you 
know, that we do have some first responders in the audience so 
what I am going to do is I am going to ask starting off with, 
you know, I will go one-by-one and ask you what do you think 
Congress should be doing? And I am just going to, you know, get 
you off the script and just give you an opportunity to give you 
that opportunity to go ahead and start off that way. So, Mr. 
Sarubbi, I know you are with FEMA so we will make it an 
official request to ask that question.
    Mr. Sarubbi. Do I have to go first?
    Mr. Cuellar. Give Mr. Werts here probably would be the 
first person to do that. He got the quickest response and I 
like that so Mr. Werts why don't you go first.
    Mr. Dent. He wasn't shy when he was either.
    Mr. Werts. Well certainly the fact that, you know, money is 
always the root of everything. And first of all I think the 
concept of the Task Forces should be maintained. I think that 
is certainly something that should be ongoing. It is not 
something that I think should just fall by the wayside because 
as I said before there I think there are a lot of things that 
we can do regionally and we do very well. We tend to relate to 
one another a little bit more easily and more readily when we 
are dealing in this type of an environment. I think the other 
thing that, and I know this isn't just in Pennsylvania but in 
many areas of the nation, our volunteers, you know, our EMS 
people, our fire people, I don't think we can lose site of the 
fact that they are volunteers, you know. And most of these 
companies, these fire companies go out and they survive on, you 
know, bingo and selling items, you know, to buy a new truck. 
They need direct help from, you know, from Congress from the 
United States. And I think that is extremely important. The 
fact that we have as many law enforcement agencies in the 
Commonwealth as we do certainly attests to the fact that there 
is a need for law enforcement. And don't forget the fact that 
these agencies require ongoing support from you folks to make 
sure that they can do the job that they have to do. And that is 
the everyday job. Today we are sitting here talking about some 
worse case scenarios where these folks are going to be pushed 
to the very limit, you know, without snapping, if you will. I 
mentioned in here about evacuations where law enforcement 
agencies are going to deal with two or three times the 
population that they may deal with on a daily basis. There is a 
lot of planning that has to be done by the agencies to make 
sure that they have a plan in place so that they can deal with 
this effectively. That takes time and it takes money for them 
to be able to do that and I hate to bring everything down to 
the dollar but unfortunately that is the life we live in today.
    Mr. Cuellar. Okay. Thank you. Anybody else, any of the 
four? I won't pick on anybody but if you want to add anything 
an opportunity to turn around and ask us questions, sure. 
Notice we haven't responded we are just on the listening mode 
today. Yes, sir.
    Mr. Paul. Congressman, the House Financial Services 
Committee has been reticent to make these guidelines or 
recommendations requirements on the part of the financial 
services industry even though they are well aware that the 
existing backup in disaster recovery facilities don't meet 
these guidelines, and in the event of an explosion of a small 
tactical nuclear weapon or a biological agent being spread in 
New York or any number of those kinds of serious disaster 
scenarios the backup facilities that exist today would not 
function or would not function well. What will it take to get 
Congress to require the securities and financial industry to, 
in fact, embrace these guidelines and recommendations as if 
they are, in fact, requirements?
    Mr. Cuellar. And that is a good point which leads to one 
thing that we see in Congress and is the fact that we have 
different committees with different jurisdictions. We are 
talking about homeland committee here but then if it touches 
another area then you have another chairman that comes in and 
says, whoa, that is our jurisdiction so the, you know, I think 
our Chairman Bennie Thompson has done a good job in working 
with other chairmen on other issues. I know that the, what is 
it, the infrastructure committee, transportation is one that, 
you know, we have gotten together and worked out some, you 
know, some of those issues on that so this is a good point that 
we are going to be conversing on then.
    Mr. Paul. Thank you. And one other item if I may is what 
will it take to get the Department of Homeland Security to 
commit some funding to this project so that, in fact, we can do 
it faster?
    Mr. Cuellar. Well, it really is not Homeland Security it is 
up to the Congress, no just kidding, no, no. Yeah, no, well, I 
will have Charlie answer that one. Just kidding. It is a good 
point.
    Mr. Dent. Just a follow-up, I guess, and just on what you 
said Mr. Chairman about the jurisdictional issues--one of the 
key recommendations of the 9/11 Commission was to consolidate 
many of the these jurisdictional disputes and, you know, the 
Department of Homeland Security will often complain to us about 
the number of hearings they must attend in Congress, the 
multiple committees. The issue of terrorism risk insurance is 
under the Financial Services Committee as are many of the 
issues dealing with Wall Street West. All Homeland Security 
issues--I serve on the Transportation and Infrastructure 
Committee and the Homeland Security Committee--we both have 
jurisdiction over FEMA, for example, and different aspects of 
that agency, but these are continuing challenges. And the one 
issue that I wanted to raise with, I guess perhaps, the three 
in the center here, General French, Mr. Werts and Ms. 
Marrocolo, deals with the issue of post-Hurricane Katrina. 
There was a lot of analysis and assessment at the time about, 
you know, what should the Federal role be in the event of a 
major incident like we saw there? In that case it was a 
naturally occurring incident, a hurricane. And, you know, what 
should the role of the Federal Government be versus that of the 
State and local governments? I mean it was pointed out, General 
French, in your testimony that you have 150 people at the PEMA. 
FEMA has a few thousand, about 2,500 employees----
    Mr. Sarubbi. Yes, about 2,600 employees.
    Mr. Dent. --2,600 employees. Obviously, the State and 
Federal Governments have many other assets that they deploy to 
the scene but there were a lot of questions and comments at the 
time about this layered system of response--local, State, and 
Federal. Was that the best model? Should we be federalizing 
many of these types of responses? I heard from many governors 
not long after 9/11, after Katrina, that that would be a 
mistake. I was just curious what your thoughts were. Should we 
maintain this layered system of response? You know, obviously, 
at the local levels where you have so many of the assets in 
terms of first responders, FEMA doesn't have a police 
department or a fire department but our local communities do. 
And so I would just like to get your thoughts and maybe, 
General French, you would like to start us off on that.
    Mr. French. Yes, sir, I will be glad to. Thank you. I use 
an example that while it is not a catastrophic one as Katrina 
or others that you might have mentioned but I will use a local 
example that just happened here in the last month in which we 
had an emergency here in the Lehigh Valley that had the 
potential of being a very catastrophic element of NBC warfare 
that we talked about potential there for a radiological weapon 
when first identified. When the report first came in the local 
agencies began to work that obviously immediately. They have 
the best feel for what is happening on the ground because they 
are right there.
    Mr. Dent. Which incident are you referring to?
    Mr. French. When we had the FedEx situation that arose and 
handled very well by the local incident commander, Chief 
Stevenson, I believe was his name, who initially working with 
the on-site here at the hospital, Lehigh Valley.
    Mr. Dent. St. Luke's, I think, St. Luke's Hospital.
    Mr. French. St. Luke's, yes, sir. While that was taking 
place and was the local responders were using their available 
resources, there was a chance for the communication element to 
take place where the situational awareness was known all the 
way up through to the State level as far as what was happening 
at the local level. Our county level emergency managers were 
tuned into that, in fact, on-site as it progressed but we 
continued with the local incident manager being in charge. That 
in itself as the day went on and as we went through the entire 
protocols turned out to be, I think, the best way to deal with 
that because you have situational awareness at various levels. 
It is not you are totally in the dark at the county or at the 
State or at the Federal level. But speaking in that regard when 
it came time to bring the additional resources to bear there 
wasn't a delay in when that, those additional resources could 
actually be engaged but rather because of the situation 
awareness we were able to respond at, I think, an appropriate 
time. Because as it turned out it was expeditiously identified 
through some sophisticated testing that was done at a higher 
level than what the incident commander had. So I think Rob 
French's opinion is that when you have an emergency if you can 
treat that at the most local level that is probably going to 
end up getting you the best result.
    Mr. Dent. Thank you. Bob or Ms. Marrocolo, do either of you 
have a comment on that?
    Mr. Werts. I have known.
    Ms. Marrocolo. I mean I think where you have seen large 
breakdowns in the response is where organizations that 
typically don't provide direct services or have a direct role 
like in incident mitigation, when they try to step-in and take 
control of the incident and I think, you know, I think you said 
it best. All disasters are local. Locals are the first to 
respond and the last to leave in any emergency and they have 
the most direct experience dealing with the issues in that 
community. And I think I agree with General French that to the 
extent that you can you want to keep control of an incident at 
the local level and that is, you know, management of the 
resource requests, control of how information flows up and down 
the chain, I think that that is essential. When that leaves the 
local level it becomes very difficult for people that are not a 
part of that response structure to integrate. A lot of what we 
do is not just writing plans on paper. It is building the 
relationships so that at three o'clock in the morning when you 
are standing behind a big cloud of smoke, you know the person 
across from you and you can work together. And to bring in 
outsiders in the middle of a mess like that can become very 
difficult for them to succeed. And, in fact, in many ways it 
sets-up organizations to fail. And so I think one of the things 
that Congress should be doing is strengthening that local 
response structure by doing things like by promoting guidance 
and standards. And I think through the development of guidance 
and standards, you know, consensus-based standards not just 
something that comes down from the top. You know, there can go 
a long way to helping local governments develop the plans and 
the processes that they need to be prepared.
    Mr. Dent. Bob, do you have any final comments?
    Mr. Werts. Charlie, I have to agree with both of my 
counterparts here at the table. These things have got to be 
started and maintained at a local level. For something, you 
know, such as the FedEx thing for all of a sudden that we know 
that the Feds aren't going to jump into this. It is just not 
going to happen. And I see no reason to try and reinvent the 
wheel here. We have a system in place. There is some--are there 
some difficulties? Yes, but I think that there are things that 
can be easily overcome. Communication is paramount in these 
things. It is important that, you know, the local incident 
commander makes sure that the county is aware of it. The county 
has to make sure that PEMA is aware of it so that when it is 
necessary for those other assets to be brought in they can be 
brought in as quickly as possible. I don't think you really 
have to change it. I have to agree that maybe there is some.
    Mr. Dent. I am glad to hear you feel that way because I 
think there was sort of a knee-jerk reaction right after 
Katrina that there seemed to be a feeling that the Federal--
that the Federal level needed to be more engaged directly. And, 
I think, one of the governors who came in to see us shortly 
after that said the only disaster greater than Katrina would be 
to federalize emergency response. One of the governors did make 
that comment very clearly in citing the fact that he said, you 
know, in which hurricanes will you choose to respond and in 
which ones should I be? Basically, it would take him off the 
hook. He and the locals, in other words, in terms of 
preparedness, and it would be a Federal responsibility. And I 
was just pleased that that is your sense that we ought to 
maintain that system and even strengthen it. So, I guess, the 
other final comment would be, what is the lesson that I think 
you all learned from Katrina about this layered system of 
response? What worked and what didn't? What did we do right? 
What didn't we do right? What do you think we can do to 
strengthen that State and local system? I mean we obviously 
realize FEMA had many challenges and difficulties during 
Katrina, but we also saw some of the challenges at the State 
and local level, and if there are any lessons you learned out 
of that, what were they as professionals in the field?
    Mr. Sarubbi. I am sorry. Could I just make a couple 
comments on the Federal response? Under the old paradigm and as 
previous speakers have pointed out all responses are local.
    Mr. Dent. Right.
    Mr. Sarubbi. And what would happen is, of course, the first 
responders would respond. When they get overwhelmed the State 
would come in. When they get overwhelmed then the Federal 
Government would come in. And usually by that time the Federal 
Government got involved it was really too late. With our new 
posture in leaning forward we are trying to be in a position 
where we can provide assistance to the State and local folks in 
a more timely fashion. And we have done that through a number 
of avenues in terms of increasing our ability to gain 
situational awareness. For example, the General spoke about 
this FedEx incident. We were monitoring that very closely. 
Should the Federal Government need to step-in we were prepared 
to do that. We have also implemented new procedures that will 
allow Federal assistance to come more quickly in terms of being 
able to expedite the declaration process. And even, also.
    Mr. Dent. You mean in terms of amendments to the Stafford 
Act, is that what?
    Mr. Sarubbi. Yes, sir, I am sorry, yes, sir. The Stafford 
Act Declaration process, for example, for both man-made and 
natural disasters. And we are also able to, new procedures in 
place to provide Federal support even if there isn't a 
declaration. Now if there isn't a declaration and we do provide 
Federal support the State would have to reimburse FEMA for that 
but it does give them the opportunity to access those Federal 
assets and dollars.
    Mr. Dent. Are there any, and maybe that is probably a 
better question and you started to address it. Is there 
anything that we ought to be doing to address the Stafford Act 
to help make this system better? Any changes beyond those that 
have already been made in terms of bringing the preparedness 
function back into FEMA and other changes we made last year?
    Mr. Sarubbi. I don't know if there is anything that needs 
to be done to amend the Stafford Act. I think I just want to 
thank you for your support that you have given FEMA in its 
efforts to rebuild itself. Under Chief Paulson's vision of new 
FEMA we are becoming more forward leaning and becoming a more 
nimble organization. And I think we are well on our way to do 
that and now that we have had preparedness back into FEMA we 
are able to better prepare ourselves and our State and local 
partners through being able to have greater oversight over 
grants and the training and exercises and planning. All those 
things have helped build solid relationships and helped provide 
the right resources to the folks that need them the most. But 
as I said I think the procedures that we are putting in place 
in terms of enhancing our situational awareness capabilities 
and our ability to be there to support our State and local 
partners much more quickly than we ever have before are 
working. And we just need more time to do that and funding and 
so, continued funding and so forth.
    Mr. Dent. Mr. Chairman, I don't want to belabor this. I 
just am very appreciative of all the folks who provided 
testimony today, and as the Chairman mentioned, he and I are 
going to be heading from here right down to Washington. General 
Petraeus has a little hearing today too, beginning at 12:30 for 
six hours and, of course, we scheduled our hearing before he 
was scheduled. But so we are going to make sure that we catch 
part of that at some point today. He and Ambassador Crocker are 
coming, in but thank you, Mr. Chairman. I yield back to you at 
this time.
    Mr. Cuellar. Thank you, and first of all I certainly want 
to thank Congressman Dent. As I mentioned he is an outstanding 
member and I look forward to working with him for a long time. 
I want to thank all of the witnesses, also, that we have here. 
Your testimony was right on line and I think what we need to do 
is learn from each other and make the process better, and make 
it work better. And I think everybody is in agreement that the 
local part of it is so important and I think the relationships 
that you all establish working with each other is so important 
because I don't think we want to be exchanging business card in 
the middle of a disaster like has happened in the past. And I 
think that was a mistake but we are learning and it is a 
process and this hearing is going to go a long way because you 
know everything has been taken down and we will be reviewing 
this. Finally, to the people out there in the audience let me 
just say this. I think Homeland Security is everybody's 
responsibility. We all have a responsibility to all work with 
our local and State and Federal officials and I think as long 
as we do this as a team this will be in the best interest of 
our country. So at this time I want to thank all of the 
witnesses again for their valuable testimony and, of course, 
our members we might have some additional questions and if we 
do send you something in writing we will ask you to submit that 
to us as soon as possible. Hearing no further business the 
hearing is adjourned. Thank you.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
